<html>
<title> - ASSESSING WHETHER VA IS ON TRACK TO SUCCESSFULLY IMPLEMENT APPEALS REFORM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
  ASSESSING WHETHER VA IS ON TRACK TO SUCCESSFULLY IMPLEMENT APPEALS 
                                 REFORM

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         TUESDAY, JULY 24, 2018

                               Q10_______

                           Serial No. 115-72

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 35-810               WASHINGTON : 2019       
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   CONOR LAMB, Pennsylvania
JODEY ARRINGTON, Texas               ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
BRIAN MAST, Florida
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                         Tuesday, June 24, 2018

                                                                   Page

Assessing Whether VA Is On Track To Successfully Implement 
  Appeals Reform.................................................     1

                           OPENING STATEMENTS

Honorable David P. Roe, Chairman.................................     1
Honorable Mark Takano, Acting Ranking Member.....................     3

                               WITNESSES

Honorable Paul R. Lawrence, Under Secretary for Benefits, 
  Veterans Benefits Administration, U. S. Department of Veterans 
  Affairs........................................................     5
    Prepared Statement...........................................    31

        Accompanied by:

    Honorable Cheryl L. Mason, Chairman, Board of Veterans' 
        Appeals, U. S. Department of Veterans Affairs

    Mr. David R. McLenachen, Director, Appeals Management Office, 
        Veterans Benefits Administration, U. S. Department of 
        Veterans Affairs

    Mr. Richard J. Hipolit, Deputy General Counsel for Legal 
        Policy, Office of General Counsel, U. S. Department of 
        Veterans Affairs

    Mr. Lloyd Thrower, Deputy Chief Information Officer, Account 
        Manager, Benefits Portfolio, Office of Information & 
        Technology, U.S. Department of Veterans Affairs
Ms. Elizabeth H. Curda, Director, Education, Workforce, and 
  Income Security Team, U.S. Government Accountability Office....     7
    Prepared Statement...........................................    33

        Accompanied by:

    Mr. James T. Whitcomb, Assistant Director, Education, 
        Workforce, and Income Security Team, U.S. Government 
        Accountability Office

                        STATEMENT FOR THE RECORD

VETERANS OF FOREIGN WARS OF THE UNITED STATES....................    42


  ASSESSING WHETHER VA IS ON TRACK TO SUCCESSFULLY IMPLEMENT APPEALS 
                                 REFORM

                              ----------                              


                         Tuesday, July 24, 2018

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. David R. Roe 
presiding.
    Present: Representatives Roe, Bilirakis, Coffman, Flores, 
Radewagen, Bost, Poliquin, Dunn, Bergman, Banks, Mast, Takano, 
Brownley, Kuster, O'Rourke, Correa, Lamb, Esty, and Peters.

          OPENING STATEMENT OF DAVID P. ROE, CHAIRMAN

    The Chairman. Good morning. The Committee will come to 
order and thank you all for being here today. This is the 
second hearing on appeals reform in the last 6 months, which 
underscores the importance of this issue to the Committee.
    After hearing horror stories of veterans who had been 
waiting 5, 6, 7 years, even longer for a final decision on 
their claims, the Veterans Appeals Improvement Modernization 
Act of 2017, the AMA gave veterans hope that a modern appeals 
system could improve appeals processing.
    Congress worked on appeals; it did not end with the passage 
of the law. We will hold as many hearings as we need to ensure 
the VA effectively implements the law.
    VA is telling us that the law will go into effect February 
of 2019, less than 7 months from now, but between now and 
February VA has a lot of work to do. The Department has to 
update its IT system, issue regulations, create forms, train 
employees, allocate staff appropriately, to help us monitor 
VA's progress on appeals reform. The AMA requires the 
Department submit reports every 90 days.
    I was very disappointed that the first report, which was 
submitted last November, lacked many details, because it seemed 
that the VA had not yet focused on all the steps it needed to 
take to implement the AMA. However, the next two reports, which 
were submitted in February and May, were better and contained 
much-needed details. This showed me that VA is beginning to 
think through all the steps that it will need to effectively 
overhaul the current appeals process, including its IT systems, 
which is one of the most important components of the new 
appeals system. Needless to say, appeals reform can't go into 
effect unless the Department's computer programs are able to 
manage appeals and the new system.
    During the January hearing, Mr. McLenachen testified that 
about 75 percent of the IT functionality would be delivered by 
August. Last Thursday, VA informed my staff that only 35 
percent of the core functions will actually be completed by 
next month with remaining core functions delivered in December. 
VA has assured my staff that executing this plan remains a 
first priority of VBA and OI&T Technology Resources.
    During the July 18th Economic Opportunity Subcommittee 
hearing, VA testified that OI&T is working 24/7 on updating the 
IT systems for the Forever GI Bill. I would appreciate some 
clarification on how OI&T intends to balance both of these top 
priorities to ensure that both are timely accomplished.
    I am concerned about whether the appeals software will be 
ready in time and whether VA will have a contingency plan if it 
is not ready.
    I also expect to get an update on the status of the new 
regulations that VA will need to begin handling appeals in the 
new system. Publishing new Federal regulations is a long 
process that can sometimes take years. My understanding is that 
the regulations are supposed to be published this morning. 
Frankly, the Department has its work cut out to finalize 
regulations and be completely ready for the new system by 
February of 2019.
    It is also important that VA understand that this Committee 
not only expects the Department to successfully roll out the 
new appeals system, but to also reduce the current appeals 
backlog. Right now, VA has a backlog of almost 430,000 pending 
appeals with many veterans waiting 6 years or longer just for a 
final decision on their claims for benefits. That is 
unacceptable. Veterans have a right to get a correct decision 
on their claims in the first place, but if they disagree with 
the decision, they should have their appeals decided accurately 
and within a reasonable amount of time.
    VA had hoped that the Rapid Appeals Modernization Program, 
or RAMP, which allows veterans who have pending appeals to 
transfer to the new system, would significantly reduce the 
number of legacy appeals. However, it doesn't look like RAMP 
will make much of a dent in the appeals backlog since only 13 
percent of eligible veterans have chosen to transfer to RAMP.
    And I will say that I have been out and talked to some 
benefits folks and the RAMP program seems to work; it is 
convincing. And when I was out speaking to the DAV National 
Convention, I encouraged them to use RAMP, because I said this 
is something that it is a resource I don't think you are using 
right now and you can get an appeals claim adjudicated much 
quicker, and I have heard that from several of our claims 
people out there. So, I would encourage all of us on this dais 
to inform and educate our own constituents about the use of 
RAMP.
    One of my biggest concerns is how VA will resolve the 
appeals backlog while putting the new law into practice with 
the current leadership vacuum, and that vacuum just got solved 
last night. Just last night, the Senate confirmed Secretary 
Wilkie's nomination, and right now the Department still does 
not have a permanent Deputy Secretary or Chief Information 
Officer. Although I trust that the people at this table are 
doing the best they can right now, there is no one single 
person who has the responsibility for overseeing appeals reform 
both at VBA and the Board. VA needs to ensure that both VBA and 
the Board are talking to each other, particularly with respect 
to developing integrated IT systems that will allow employees 
to better communicate with each other.
    I am looking forward to an open and productive discussion, 
to ensure that when the law is fully implemented the VA will 
have developed a process that provides veterans with accurate 
and timely decisions on their claims that they deserve.
    Again, I want to thank all the witnesses for being here 
today, and I now yield to Ranking Member Takano for any opening 
statement that he might have.

    OPENING STATEMENT OF MARK TAKANO, ACTING RANKING MEMBER

    Mr. Takano. Thank you, Mr. Chairman.
    First of all, we congratulate Secretary Designate Wilkie on 
his confirmation by the Senate yesterday and we look forward to 
working together with him in the future.
    I will get to the details of appeals modernization in a 
moment, but it is no secret that several actions taken by top 
VA leadership recently are troubling to our side of the aisle. 
I do not think we can get together as a Full Committee and 
pretend that these controversies don't impact important 
progress and key programs throughout the agency, including the 
implementation of the Appeals Improvement and Modernization 
Act.
    First, the Senate actually had to intervene in late June to 
ensure the right of VA's IG to obtain records as part of an 
ongoing investigation. Acting Secretary O'Rourke refused to 
cooperate with the requests for information of the VA Inspector 
General. Because Mr. O'Rourke's failure to cooperate is 
unprecedented, several of us sent a letter to the Counsel of 
the Inspectors General on Integrity and Efficiency, which 
provides oversight of Federal IGs. If he or the new Secretary 
are allowed to ignore the IG's request for information in the 
future, an important check will be lost on the kinds of waste 
and impropriety this Committee has been trying to locate and 
eliminate.
    The vote was 96-to-zero in the Senate to rein in Acting 
Secretary O'Rourke. This vote shouldn't have been necessary, 
and it is a distraction from the work the VA should be doing.
    Furthermore, when I asked him about it in our Full 
Committee hearing last Tuesday, Mr. O'Rourke's answer was that 
the IG's, quote, ``access to OAWP has been unfettered since day 
one,'' end quote. This was untrue.
    Secondly, recently several key career employees were moved 
to less important positions or pushed out, many seemingly 
without cause. After highly credible concerns were raised in 
whistleblower reports and press interviews with VA employees, 
several of us sent a letter to the U.S. Office of Special 
Counsel asking for an investigation into whether this career 
public servants were moved out for cause or for political 
reasons, actions which could violate the Hatch Act or other 
Title 5 protections. This is yet another distraction from what 
VA should be doing.
    There has been considerable shuffling of leadership staff 
at VBA too. We have just welcomed a new Under Secretary for 
Benefits, Dr. Paul Lawrence, for whom we wish nothing but 
success. But two key VBA vacancies remain unfilled, Deputy 
Under Secretary for Disability Assistance and Deputy Under 
Secretary for Economic Opportunity.
    Now, though we are grateful for the experience and 
continued dedication to duty of Chair Mason at the Board, Mr. 
Thrower in the Office of Information & Technology, and Mr. 
McLenachen, Ms. Murphy, Mr. Quill and others at VBA, if appeals 
modernization is going to be implemented on time in 7 short 
months, VBA management must stabilize. Vacant positions must be 
filled and the controversies and distractions of all this 
shuffling must end.
    The Appeals Improvement and Modernization Act signed into 
law on August 23rd of last year was a triumph of 
bipartisanship. There was and is nothing Republican or 
Democratic about what we were able to accomplish together.
    And I want to take a moment to acknowledge Congresswoman 
Dina Titus of Nevada for her extraordinary skill and her effort 
at bringing the stakeholders together.
    The VSOs invested a lot of time in the idea that if they 
put aside some long-held differences, and worked in concert 
with the other and the VA, a better way forward could be 
devised. This was an unprecedented coming together of our 
Veterans Service Organizations and we thank them for that.
    The result of all this effort was the Appeals Improvement 
and Modernization Act and, after 11 months, we are now at a key 
point in the implementation process. The long-awaited 
regulations will be published this week. What these regulations 
say and whether the IT necessary to make all this work can be 
delivered on time are where we should be--these are what we 
should be concentrating our efforts on, these regulations and 
the IT.
    GAO will testify that there are still gaps in key areas. 
The report says that VA's plan for a performance measurement 
system lacks specificity. The timeline does not reflect the 
interdependencies among key activities. And, finally, VA has 
not done the risk assessments basic to any change-management 
strategy. Nonetheless, there is progress and hope for a 
successful rollout of full implementation in February.
    The pilot programs are in place, claims processors and 
attorneys have been hired, impressive IT has been delivered and 
is working at the Board. Having said that, if another 
leadership upheaval sweeps through and the experienced hands 
like those here today are replaced or reassigned, Appeals 
Improvement and Modernization could be jeopardized.
    Now, we are very, very proud of this Act and we don't want 
unnecessary distractions to get into the way.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman for yielding. And I 
really appreciate him mentioning our agenda a better way in his 
comments, that was good.
    Joining us today are the Honorable Paul Lawrence, the Under 
Secretary of Benefits. He is accompanied by the Honorable 
Cheryl Mason, the Chairman of the Board of Veterans' Appeals. 
Thank you for being back. David McLenachen, the Director of 
Appeals Management Office at the Veterans Benefits 
Administration; Richard Hipolit, the Deputy General Counsel for 
Legal Police with the General Counsel's Office; and by Mr. 
Lloyd Thrower, the Deputy Chief Information Officer, Account 
Manager, and Benefits Portfolio of the Office of Information & 
Technology.
    Elizabeth Curda, the Director of Education, Workforce, and 
Income Security Team for GAO. She is accompanied by James T. 
Whitcomb, the Assistant Director of the Education, Workforce, 
and Income Security Team at GAO.
    Thank all of you all for being here this morning and, Mr. 
Under Secretary Lawrence, you are recognized for 5 minutes.

            STATEMENT OF HONORABLE PAUL R. LAWRENCE

    Mr. Lawrence. Thank you. Good morning, Chairman Roe, 
Ranking Member Takano, and Members of the Committee. Thank you 
for inviting us to provide an update on VA's progress 
implementing the Veterans Appeals Improvement and Modernization 
Act.
    You just introduced my team to the left, and so I will save 
your time and not do that again.
    We agree, this legislation is the most significant 
statutory change affecting VA appeals in decades. We want to 
thank the Committee again for their support and legislative 
efforts, which will allow VA to transform and streamline a 
longstanding process into one that will positively impact 
veterans.
    I am pleased to report that Appeals Modernization remains 
on track for implementation in February 2019. My confidence is 
based on my work with the team since I was sworn in. I have 
regularly met to review our team, the schedule, and our 
progress, and I can tell you that we have a strong team in 
place with a well-thought-out plan for implementation and 
beyond.
    In addition to the weekly meetings I convene with our VBA 
team, I meet twice monthly with Chairman Mason to review this 
work. Prior to my confirmation, the Deputy Secretary met 
regularly with Chairman Mason and the AMO team to review 
progress. Lastly, we meet with GAO and Congress regularly to 
report on our progress. We have been transparent and plan to 
continue having these open discussions. We all want to avoid 
surprises with the implementation date.
    The Rapid Appeals Modernization Program, or RAMP, is a 
significant achievement. As of July 2018, over 31,000 veterans 
had opted into RAMP and more than $33 million in retroactive 
benefits have been paid. VA is also processing RAMP claims in 
an average of 84 days, well below the average processing goal 
of 125 days. RAMP is providing valuable insights into staff 
composition, workload management, successful methods of 
outreach, and identification of quality errors.
    The Board's Early Applicability of Appeals Modernization, 
or BEAAM, research program is providing feedback to inform 
assumptions about veterans' choices and experiences. While the 
results of BEAAM are still being reviewed, veterans report they 
are optimistic about the changes and appreciate VA for working 
with them.
    VA submitted the proposed rules for Appeals Modernization 
to the Federal Register on July 18th. We are waiting for them 
to publish as soon as they complete their own review.
    VBA's appeals program is supported by 1,495 FTEs. VBA has 
requested an additional 605 FTE in the 2019 President's budget 
to process legacy appeals and decision reviews under the 
modernized process. To create further efficiencies and ensure 
it meets its stated goals, VBA is establishing three decision-
review operations centers under the direct control and 
oversight of VBA's Appeals Management Office.
    To ensure smooth implementation, the Board is also 
undertaking an aggressive plan to recruit, hire, and train new 
employees. The Board is currently on pace to hire up to a total 
of approximately 1,050 FTEs by the end of the year. Chairman 
Mason has also recently recommended eight Veterans Law Judge 
candidates to fill vacancies.
    We have been focusing on resolving legacy appeals for 
veterans. At the end of June, VBA's inventory had decreased by 
almost 13 percent and appeals production was 8.7 percent above 
target. VBA plans to complete its legacy appeals by the end of 
2020.
    The Board has delivered a record production of over 64,000 
decisions thus far in fiscal year 2018 and is on track to 
deliver over 81,000 decisions to veterans by the end of the 
year.
    The Department has undertaken efforts to modernize the 
appeals process through improvements in technology, and I am 
pleased to report that these activities are on track and all 
milestones have been met. In January, as you referenced, sir, 
we told the Committee that we would have 75 percent of the IT 
complete by August with the rest finished by December. This 
estimate was based on early analysis of the system requirements 
for appeals modernization. We have learned much since January 
and I want to update you on the schedule.
    Our current plan is to complete six core functions, 
approximately 35 percent, in August and the 11 other functions, 
the remaining 65 percent, by December. Our current estimate is 
based on a detailed examination of the business and engineering 
requirements as they relate to the VBMS software. It accounts 
for core pieces that must be installed in the August release 
before other changes may be added in the software development 
process. VA has a high level of confidence in the success of 
this plan because it is based on the inputs of longstanding 
VBMS project teams in both VA and VA's OI&T.
    We will continue to closely monitor this development plan 
and advise the Committee of any delays we encounter. But again, 
all milestones have been met and we are on track.
    Lastly, in terms of communication, VA is currently holding 
regular discussions with VSOs, veteran advocates, Congressional 
stakeholders, and GAO. Through collaboration, senior leadership 
from the Board and VBA have provided approximately 25 outreach 
sessions this year with more scheduled.
    Most importantly, VA is listening to our veterans to help 
us improve the services we provide.
    Mr. Chairman, this concludes my statement. We will be 
pleased to respond to any questions.

    [The prepared statement of Paul R. Lawrence appears in the 
Appendix]

    The Chairman. Thank you, Mr. Lawrence.
    And, Ms. Curda, you are now recognized for 5 minutes.

                STATEMENT OF ELIZABETH H. CURDA

    Ms. Curda. Chairman Roe, Vice Ranking Member Takano, and 
Members of the Committee, thank you for inviting me here to 
discuss GAO's observations on VA's progress in planning for the 
reform of its disability appeals process.
    Reforming the appeals process is a complex endeavor 
involving major process people and technology changes, an 
endeavor that will affect the lives of hundreds of thousands of 
veterans with disabilities. Such a major undertaking requires 
careful planning to improve VA's chances of success.
    Last March, we reported that while VA's initial plan 
reflected aspects of sound planning, improvements were still 
needed to provide greater assurance that appeals reform will be 
successful. We recommended that VA's plan; one, address all 
legally required elements in the act; two, articulate how it 
will monitor and assess the performance of appeals processes; 
three, augment its project plan for implementation; and, four, 
address risk more fully. VA agreed with our recommendations.
    Today, I will discuss our observations on how VA's updated 
plan reflects progress in implementing our March 2018 
recommendations and areas where their plans could be more 
robust.
    Regarding addressing risks to the plan, VA has taken some 
important steps to address our recommendation. For example, 
previously VA had plans to test only the two new VBA appeals 
options. Since then, VA has initiated a small-scale, non-
generalizable test of the three new Board options. VA plans to 
use these tests to collect information on what options veterans 
choose and their experiences using the new options. This 
additional information about the choice's veterans make given 
all five options could help identify and mitigate some risks.
    VA is also better positioned to mitigate risks by 
developing new analytical tools that will enable it to better 
project resource needs using different assumptions about opt-in 
rates and productivity.
    While some progress has been made in assessing certain 
risks, VA has not made progress in articulating a full set of 
goals and measures for important dimensions of performance such 
as timeliness, accuracy, and customer satisfaction. The plan 
includes timeliness goals for three of the five new options and 
indicates VA is collecting data to inform the development of 
additional performance measures, but will not complete this 
effort until after implementation of the new appeals process.
    However, sound planning practices call for agencies to 
define expected performance before they implement major process 
reforms rather than letting the process define success after 
the fact.
    Similarly, the plan does not include success criteria or 
analysis plans for its RAMP and Board pilot tests. Without 
success criteria or analysis plans, it is unclear how VA will 
use the information from these tests to determine if the new 
process is working and enable comparisons to the legacy 
process. The new metrics VA is required to collect and report 
under Section V of the Reform Act could help VA measure the 
relative timeliness of the new and legacy processes, but VA has 
not articulated how it plans to make this assessment.
    Regarding project management, VA's plan provides more 
detail about planned activities, as well as some indicators it 
will use to assess its readiness for implementation. However, 
the project plan does not include the small-scale pilot of the 
new Board options, a key activity, and lacks detail on other 
activities such as its customer outreach effort.
    The master schedule also continues to lack information on 
how any delays in completing activities such as IT development 
would affect related activities such as training and full 
implementation. VA officials indicated they plan to address 
some of these issues in their next update.
    Finally, VA's plan now addresses 18 of the Act's 22 
required elements, which is up from the 17 we reported on in 
March. VA's plan now has fully addressed the element for 
projecting productivity and partially addresses the four 
remaining elements. VA's plan needs to address the four 
remaining elements, which include information vital to the 
success of appeals reform such as delineating total resources 
required by VA for the new and legacy systems, and setting 
milestones for the reduction of legacy appeals.
    In summary, VA's updated plan includes some important new 
details that increase the reform plan's chances for success. 
However, without fully addressing our recommendations, the plan 
continues to have shortcomings such that we cannot be certain 
that implementation will go smoothly or that VA will know if 
the new system is performing any better than the system it is 
replacing.
    This concludes my prepared statement and I will be happy to 
address the Committee's questions.

    [The prepared statement of Elizabeth H. Curda appears in 
the Appendix]

    The Chairman. Thank you. I will yield myself 5 minutes and 
get started.
    Has the RAMP--and anyone can answer this--has the RAMP 
program given you any indication about which route the veterans 
might take? I know they are limited, somewhat it is limited, 
but has that given you any idea so that you will know if you 
have the right personnel, Mr. Secretary, or anyone can take it?
    Mr. Lawrence. Let me ask Mr. McLenachen to answer the 
detailed question.
    Mr. McLenachen. It has given us that information and it has 
been pretty consistent throughout the program. We have been 
running at about two thirds of veterans are selecting the 
higher-level review option, about a third supplemental claim. 
That has been surprisingly consistent throughout the whole 
program. I would expect to even out a little bit more after we 
get to February and we are actually just doing reviews after an 
initial decision is first made.
    The Chairman. But does that help you when you are looking 
at your personnel to know which route, because that is what Ms. 
Curda was talking about, does that help you somewhat?
    Mr. McLenachen. Yes, it does, because the higher-level 
reviewers are more experienced employees, those are our 
decision review officers, so it does help us with how we need 
to allocate the resources we have to each of those lanes.
    The Chairman. One of the things I would ask you to do, so 
that we can compare apples to apples, whether you appeal back 
to the RO or to the Board, I would still like you all to report 
that as an appeal and not name it something else, so that we 
look back a year from now and realize the appeals are half what 
they were, but they really are not, they are really the same. 
If we could do that, maybe--all these Members of the Committee 
will understand that, but new Members might not, and I don't 
want to let us give the impression to the veterans that we have 
cut these way down when really we haven't.
    Mr. McLenachen. Yes, sir, we are addressing that. In the 
RAMP program, we are using what we call end products, separate 
end products just for this workload, for RAMP workload. When we 
get to February, when we have the new law implemented, we are 
going to use separate end products for those things going 
forward. So we--
    The Chairman. I would just call it an appeal to the RO, as 
versus an appeal to the Board, therefore how many appeals--I 
understand what an appeal is, what you just said I don't know 
what is. So--
    Mr. McLenachen. So we are tracking the work separately, 
sir, so we were able to report out on that.
    The Chairman. That is important, I think. And I think the 
other thing with what we are doing, all these processes are 
extremely important, but what matters to our constituents and 
to the veterans out there is do I hear something, I mean, in a 
timely fashion, that is really it, and that it doesn't take--
and the word out on the street is, when you get this appeal 
done, it is going to take years probably. But I have had 
veterans come up to me, I can tell you I am very happy with the 
RAMP program, and come up and say I heard something in two 
months. I had them out in Reno tell me that and I think you are 
to get a shout-out for that. I think there is a great 
implementation.
    Under Secretary Lawrence, the question I have is, the VA 
has been fairly famous at not delivering on time and with this 
IT being only 30--I heard what you said, that you needed these 
six core measures before you could get to the 11, we are going 
to have another one of these hearings hopefully before the end 
of the year to go back to this, because it is very close to 
February, we are not very far away from that at all, and do you 
feel confident that we will be there and be ready to roll, have 
the personnel you need, the IT systems.
    And the other thing I was going to ask Ms. Mason for you 
all to talk about, since you are using different software, can 
those two software packages on an appeal to the Board 
communicate with the software package you are using on the 
other two RAMPs.
    Mr. Lawrence. Sure, thank you. Let me try to unpack all the 
different questions.
    So, yes to your broad one. I feel confident based on my 
review and inspection, and I will ask Mr. Thrower to speak a 
little bit more about IT in just a second. The other thing I 
would like to point out was, as you indicated, you just learned 
about this last week, and I think there was some confusion on 
our understanding of the information we should report to you. I 
think we were thinking mostly about the implementation date 
being in jeopardy, but that is on us, and what we agreed to do 
with your staff is have regular discussions of where we are on 
this. And I just volunteered, and Lloyd will repeat, us coming 
in, talking about how we measure, so that the units of measure 
are not unclear as well, so that we can provide you the level 
of comfort we have.
    But let me let Mr. Thrower talk about this too as well.
    Mr. Thrower. Yes, sir. So, actually we are very confident 
in our delivery schedule right now. Once we broke this out in 
February and looked at individual requirements, we stacked 
them, ranked them, and built a schedule that had a very level 
effort throughout, so we wouldn't have peaks and valleys 
throughout, so that we could have a level amount of effort 
throughout the entire year. We have met every single milestone 
that we have had.
    The pieces that we are delivering right now, the specific 
function points in August are actually the heavy-lift pieces, 
the ability to track claims and contentions. And so that is a 
huge step that we are making, and we will be delivering next 
month.
    To the last point that you asked specifically around the 
integration points between the case flow and VBMS, the two 
engineering teams have been working side-by-side since February 
of this year to understand the integration points between them 
and to test out capabilities along the way, and we have had a 
very smooth relationship between the two development teams.
    The Chairman. Thank you. My time has expired, but one last 
just comment, and I will turn it over to Mr. Takano, is that, 
you know, we heard that things would be ready for the Forever 
GI Bill and they are not ready to go. So that is our concern.
    Mr. Takano. Dr. Lawrence, the GAO stakeholders and 
Committee staff have continually pressed the need for detailed 
planning outlines, yet the VA has failed to provide truly 
detailed plans and risk assessment. Can you please explain the 
reason why you have not provided the above details?
    Mr. Lawrence. Sure. We very much value our relationship 
with GAO and want to work closely on them. We appreciate all 
the detailed work they do on our program. In fact, Ms. Curda 
and I were just talking on August 3rd, her boss, the 
Comptroller General of the United States, is coming over to our 
office and meet with me and talk about how we more closely and 
better understand it.
    That said, I think she reported that we continue to work 
closely and achieve many of those things. In just a second, I 
will ask Mr. McLenachen, because he regularly meets with her. I 
think we are making progress, I think they continue to 
challenge us and push us further, and we want to work closely 
to make sure we do that.
    So, Mr. McLenachen, would you like to add anything?
    Mr. McLenachen. Yes, sir. We do work closely and, as you 
heard in the prior report, 17 of the 22 recommendations that 
GAO had been fulfilled by us. We fulfilled one more to GAO's 
satisfaction, but this is a process of us continuing to work 
closely with them. Really, I could say that what my 
understanding of what GAO is looking for is more detail. So 
every report that we issue, every update, we try to provide 
that other detailed information.
    I just want to point out that what is being reported today 
is based on an update that we did in May, right now in 
concurrence in VA is our August update, so that will have 
additional details that GAO is looking for.
    Mr. Takano. Okay. Thank you.
    Ms. Curda for the GAO, you have mentioned in your testimony 
that it is the best practice to identify a set of goals and 
measures before testing and implementing the new appeals 
process. Can you explain more about what you mean by that?
    Ms. Curda. Certainly. It is really important to establish 
at the outset what the vision of success for the appeals reform 
will be, so that you can design your program to achieve that 
vision of success. So having clear goals about how much time 
processes will take, the degree of accuracy, what is expected 
in terms of customer satisfaction, are important for designing 
the system, for doing a risk assessment to determine if there 
are any things that can get you off track in terms of achieving 
those goals and mitigate for them; it is important for 
establishing accountability for what is expected in terms of 
results; and, finally, for monitoring and feedback, so at the 
end of the day you have information coming and telling you are 
you on track, are you achieving what was intended by appeals 
reform.
    Mr. Takano. All right, thank you. And you believe that the 
VA has not sufficiently established those goals and measures, 
is that correct?
    Ms. Curda. That is correct. We have seen some timeliness 
information, but not for all the Board options, and we have not 
seen other measures of performance that would be important to 
create what we call a balanced set of measures. You can do 
things much more quickly, but you have to keep an eye on 
accuracy as well, because if you are doing things faster, you 
could be making mistakes. So you need to keep an eye on both 
things.
    And I understand that they have existing measures and they 
intend to do more with those and to develop those, but now is 
the time to kind of get that worked out.
    Mr. Takano. Okay. Dr. Lawrence, is the VBA stabilized? What 
I mean by that is, is the new reorganization of staff pretty 
much run its course and, you know, do you feel confident in 
your team that they will be able to be in place enough, at 
least long enough to see the implementation of this plan?
    Mr. Lawrence. Sure, yes. Let me tell you about my discovery 
when I arrived in the middle of May. I concluded very quickly 
that I am very fortunate, even blessed to have a very strong 
senior team around me. So, stabilized is not the word I would 
use, sir. I made some realignment to better focus on the needs 
of veterans, but I have no additional changes anticipated of 
that magnitude.
    Mr. Takano. Very good.
    Mr. Chairman, I have no more questions. I yield back.
    The Chairman. I thank the gentleman for yielding.
    Chairman Bost, you are recognized for 5 minutes.
    Mr. Bost. Just kind of going down where we have already 
been going and not to beat a dead horse, but, Mr. Thrower, it 
is absolutely essential that IT has to be up.
    We were talking in January. Mr. McLenachen testified 75 
percent, right? Functional would be delivered in August, which 
is just a few days away, and we were informed, our staff was 
that it is only 35 percent. That is kind of hard to figure out 
how you are going to come up with the rest of the getting us 
100 percent by the December goal, which is only 4 months away. 
What is your back-up plan if it doesn't get there?
    Mr. Thrower. So, as I said, you know, one, I will say that 
initial estimates back in January were prior to actual 
engineering analysis done on this effort. We did break this out 
in terms of specific capabilities that needed to be delivered, 
we scheduled them, and we scheduled them very specifically, so 
we did not have peaks and valleys, that we had a very even 
level of effort throughout the entire effort.
    I do understand that, you know, it is very clear that the 
numbers that we provided last week, let me just say they were 
very specific to function points that were being delivered in 
August versus December, that does not actually tell the full 
story of this effort. And we are more than happy to come in and 
we have offered to come brief the Committee on various points 
along the way. We have--you know, function points, all function 
points are not equal, as well as the impact of their delivery 
on this full effort. The most critical pieces of this, the 
hardest parts of this effort are actually being delivered in 
August, the ability to manage, to take a claim and be able to 
track individual contentions within a claim, the ability to 
break into our three new lanes of where an appeal can go and 
track at the contention level is actually being delivered next 
month. Most of the additional pieces are follow-on details and 
of much lower level of effort.
    Mr. Bost. Okay. This law was signed by the President in 
August 23rd, 2017, but you didn't deliver the detailed plan for 
the IT schedule until February. Can you see why this Committee 
is a little concerned on where we are going with this? And my 
original question was, if you don't make it, what is the plan? 
Because you are telling me you are going to make it, but 
everything we were watching from this Committee--and we want to 
work with you, we want to see it happen, but every time we turn 
around it is like, we are going to get there, we are going to 
get there, we are guaranteeing we are going to get there, and 
we are just getting towards the edge and that is my concern.
    So, is there another plan in case you don't make it?
    Mr. Lawrence. Yes, sir. I appreciate that, I appreciate the 
perspective and I understand completely what you are seeing. A 
little closer to the project, we are seeing different 
information in terms of the regular drumbeat of the activities 
we are supposed to see. And, again, our offer is to come to you 
and your Committee and explain what we are seeing in more 
detail. I appreciate the perspective, though, and it is not 
lost on me, as well as the reference to the GI Bill.
    What I can tell you is, yes, there is a back-up plan. 
Broadly, while we wait for the system to come on, we will do 
things manually to honor the commitment of, you know, dealing 
with appeals.
    Mr. Bost. That is an important part.
    Mr. Lawrence. We will have that. It is unpleasant to talk 
about, because it is expensive. But again, you know, what we 
are seeing, what I am seeing in terms of the IT progress is 
solid, it doesn't reflect perhaps what you are seeing, which 
leads me to think we need to explain more in detail to explain 
our level of confidence.
    Mr. Bost. And we on this Committee do that.
    But, Ms. Curda, you also see a problem with this, right? 
GAO has been very clear in what they have given to us that 
there is a problem.
    Ms. Curda. Yes. We have several open recommendations to VA 
on its IT planning, including the need for more detailed 
schedules for when VBMS updates will be completed, when case 
flow functionality will be in place, when testing will be done, 
and so forth. And we have not seen the detail we would need to 
see to close those recommendations and, you know, we have not 
seen the objective information that they have been describing 
that gives them confidence that they will be 35 percent done or 
100 percent done, we haven't seen that information.
    Mr. Bost. Okay. Just so you know, as you can tell, by every 
question that is coming up from up here, we are all concerned, 
and we are depending on you to make sure it happens.
    So, with that, I yield back.
    The Chairman. I thank the gentleman for yielding.
    Ms. Esty, you are recognized.
    Ms. Esty. Thank you, Mr. Chairman.
    I want to thank the vice Ranking Member and the Chairan and 
all of you for joining us on this important endeavor, which is 
so important to millions of veterans across this country. And I 
will say, we have been impressed with the speeding up of 
appeals and all of that is in the right direction, but as you 
can tell from our questions, we are very concerned that this 
continue.
    So I have three questions I would like to ask. For Under 
Secretary Lawrence, the RAMP program is crucial to successful 
implementation of the appeals process by giving us information 
and feedback, you and us information and feedback about how it 
is proceeding, but we are all concerned, and the Chairan 
referenced this that we have only got a 13-percent uptake based 
on the outreach. So what do you think is going to be the effect 
on processing notices of disagreement and appeals in the future 
if we don't get to a significantly higher percentage than 13 
percent?
    Mr. Lawrence. Certainly. We are learning a lot from RAMP, 
as I indicated in my statement, and I also shared the 
experience that the Chairan did when he talked about what he 
experienced. I think if you sort of think about our journey at 
the beginning, it was a promise and, as a result, one could 
imagine folks being reluctant to participate. Now we have 
information about what happens when you participate in terms of 
the grant rate and the speed. We are trying really hard to 
communicate that regularly. While he was at the DAV conference, 
I was at the Veterans of Foreign Wars, and put up a slide in my 
presentation that explained the contribution of the VSOs in our 
places, in our RO, where the participation rate is amongst the 
highest and the difference where it is amongst the lowest. It 
is our educating the VSOs and getting them to talk to their 
veterans about what happens when you go through the experience.
    So I am very positive on the experience. I think, broadly, 
it began low and had it stayed low, I think that would have 
been a real knock on VBA, but the fact that we began to think 
about why this was and take more outreach steps and communicate 
more, plus we now have a good story to communicate. So I am 
very positive about what RAMP is going to give us.
    Ms. Esty. Again, I agree with you on everything you said, 
but it isn't the answer to the question what is going to 
happen, so we can return to that.
    Mr. Lawrence. Sure.
    Ms. Esty. And I do think you should look to use us as well 
and the VSOs, and put up on your Web site and other places to 
get that information out, so people understand. Perhaps even 
put veterans up who have gone through the process to explain 
and demystify it for people, just a suggestion.
    Mr. Lawrence. Thank you.
    Ms. Esty. Secondly, I know there have been some concerns 
raised that the reason for low participation may be that the 
notices--and we have talked about this many times before, 
before your tenure, about plain language in notices. We have 
heard informally feedback; the VSOs have been pretty happy with 
it in part because I think they worked very closely with VA. 
The state resource officers have not been as enthusiastic, we 
have heard informally they still feel that this is inadequately 
clear.
    Can I get your commitment to continue to work with them and 
every other group that is responsible for successful 
implementation to ensure that we are all working together?
    Mr. Lawrence. Yes, absolutely.
    Ms. Esty. And training for folks and all of that?
    Mr. Lawrence. Yes. And one quick point, I know your time 
is--I did watch the hearings as part of my preparation for 
confirmation, one of the first things I did was convene a group 
and say tell me about the letters. So we will continue to work 
with them and, yes, we will work with you.
    Ms. Esty. And that works with everybody, those who feel 
that they are where they need to be and those who really feel 
that they need to be moved, and that may be a matter of 
education.
    Final question for Ms. Curda. Again, if you can really 
specify the importance of establishing ahead of time broad 
criteria for implementation and success, and the need to do 
that ahead of time. I know it is annoying, because you are 
trying to get everything ready to implement and I know, Mr. 
Thrower, you are trying to do that, but if we don't have 
criteria ahead of time, can you please detail what the problem 
is if we don't have broad criteria for assessment prior to 
implementation?
    Ms. Curda. Certainly. Both the RAMP pilot and the more 
recent BEAAM pilot are positive steps. I mean, certainly we all 
agree it is good to learn something about veteran's choices 
before implementing the system, but they really aren't designed 
to be complete pilot tests of how the new system will work and 
whether it will be working as is intended. It is a limited 
test, it is not generalizable, and the criteria haven't been 
specified. Having undertaken these tests, it is not clear at 
what level of performance of the system VA would consider 
acceptable such that VA could then certify and be confident 
about implementing the full system and that everything will go 
smoothly and according to plan.
    Ms. Esty. Thank you, and I yield back.
    The Chairman. I thank the gentlelady for yielding.
    Dr. Dunn, you are recognized.
    Mr. Dunn. Thank you very much, Mr. Chairman.
    I thank the panel for being here. And thank you very much, 
Secretary Lawrence, I know you are fairly new on the job here. 
You have been there less than 3 months, I think, is that right? 
Yeah.
    But I was reading your bio over the weekend and I have to 
say, you know, I have been guilty of being pessimistic at times 
about how the VA is going to solve all these problems, but I 
think we have got terrific background here in yours to tackle 
some of the big problems in the VA. So I am hopeful, I am 
allowing myself to be hopeful there. I noticed that you were 
named twice, like the National Public Service Leader 
organizations, outstanding, and that you are an Airborne 
Infantry Captain, right?
    Mr. Lawrence. Sir, of the two, I am most proud of the 
second one, and the first one, just to qualify, I was one of 
100 people who were selected in that, but it is nice of you--
    Mr. Dunn. Outstanding, outstanding. Well, thank you for 
your service.
    Mr. Lawrence. Thank you.
    Mr. Dunn. So, although it has been earlier, I am going to 
ask you a couple questions. What do you see as the biggest 
challenge on the benefits side of the VA organization and what 
do you think is the most promising thing over there?
    Mr. Lawrence. One of the most challenging things is to just 
work the number of claims we get. There is no magic to that, 
just simply the processing, we get a lot of them, and the real 
challenge is to continue the progress that has been made and 
not maintain. My biggest concern is organizations struggle when 
they maintain performance. So I have talked about embracing the 
changes, but accelerating and learning from it as we go 
forward. So that is something I pay attention to a lot and 
trying to understand if there are new ways to think about it 
based on what we have learned and the like.
    The most promising thing I have seen is just as I alluded 
to a minute ago, it is a very strong team that is very focused. 
As you saw in bio, I have been consultant to government and 
have worked in other government agencies. I think the VBA team 
is amongst the leaders in discipline, in terms of how they 
manage things, and measurement, quite frankly.
    Mr. Dunn. That is outstanding, thank you.
    So if you could ask a bunch of Congressmen and 
Congresswomen to lean in and help you in some way, what would 
you ask of them?
    Mr. Lawrence. Well, first I would want to make sure we 
delivered on all the things you have already given us. So that 
is my first thing, so I would do it carefully. I think I would 
probably follow up on some recommendations of how to enlist 
your help in terms of the communication and the connectivity to 
the states and the different parts where you are, as well as 
really thinking through, but I haven't done this yet, an 
understanding of how to really, you know, modernize the IT 
systems we work with. But I am not asking that now, because I 
need to think that through further.
    And I know coming off some difficult moments, that is not 
the excuse and that is not what I am trying to do, but I do 
think as we think about doing--and Mr. Wilkie talked about that 
in his confirmation about being agile, that is something we are 
going to have to understand in terms of how old the systems are 
we deal with and our ability to do that.
    So those are two things, I would call those coming through 
the back of my mind, they are not requests at this point, 
though I appreciate the encouragement from you and other 
Members on this Committee.
    Mr. Dunn. Have you had enough time to get your arms around 
the budget yet? I mean, is it bloated? Is it too big, is it too 
small? Is it--
    Mr. Lawrence. Well, yes, I have, but I will--you know, I am 
sure you can ask me a question about the budget that I won't 
know the answer to, but here is my general observation: what 
goes on at VBA is a function of the veterans asking for our 
help, so it is an input-output sort of model. Veterans are 
asking a lot from us in terms of delivering the benefits. Right 
now my assessment is as appropriate. As we continue to see how 
these programs work out and the like, we could very well come 
back and ask for more. I will be unlikely in my tenure to send 
you a check back, quite honestly.
    Mr. Dunn. Thank you so much.
    I am going to turn my attention to Ms. Mason briefly. How 
many hearing requests are currently pending at the Board?
    Ms. Mason. Currently, we have over 84,000 hearing requests 
pending.
    Mr. Dunn. So how many requests in 2017 did we have, how 
many requests did we have versus how many did we complete, so 
the input-output balance, the net?
    Ms. Mason. I believe in 2017 we had a little less than 
80,000, and we completed over 13,000 sir.
    Mr. Dunn. So, 80,000 requests, 13,000 done?
    Ms. Mason. We offered 25,000 in 2017, but only 13,000 
veterans took us up on that offer.
    Mr. Dunn. So you are falling behind there?
    Ms. Mason. We are. We are working towards moving ahead and 
trying to look for new opportunities and working with IT on 
expanding our hearings, as well as the foundation for that.
    Mr. Dunn. Are you optimistic we could catch up? That is 
pretty far behind.
    Ms. Mason. I am optimistic we can catch up. One of the 
initiatives that I have already started is working with the 
VSOs and our stakeholders on veterans' requests for hearings, 
and getting our arms around what those exactly are and how we 
move through those.
    Mr. Dunn. All right. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Brownley, you are recognized for 5 minutes.
    Ms. Brownley. Thank you, Mr. Chairman.
    I too just wanted to put my two cents in relative to this 
issue that the GAO has pointed out with regards to the 
articulation of performance measurements. It seems to me that 
we are sort of putting the cart before the horse here. And, Mr. 
Lawrence, I wanted you to respond specifically to that, that 
certainly the GAO was saying that these performance goals and 
measures haven't been articulated, which therefore lacks a 
vision, which therefore, as implementation moves forward, will 
lack, you know, some kind of accountability.
    And you also mentioned that you plan on having a new update 
in August relative to some of the GAO recommendations. So if 
you could just comment on that and do you perceive to have that 
included in the August update?
    Mr. Lawrence. Certainly. Let me comment on the first part 
and then ask Mr. McLenachen to talk about the update, because 
he has been working with them on that directly.
    I am going to go look into this, because I am hoping it is 
a communication challenge on our part, because I do think we 
have goals and performance metrics that we talk about and 
perhaps we haven't communicated in sufficient detail. So I am 
certainly accepting their advice and counsel, and I want to try 
to figure out what is behind that, because I have a pretty good 
sense in my own mind of what success looks like and I want to 
make sure we provide that.
    So I will take that and report back however appropriate, 
but I will ask Mr. McLenachen to talk about the August update, 
because I know he and Chairman Mason have been working closely 
on this.
    Mr. McLenachen. Yes, Dr. Lawrence is correct, we do have 
goals and metrics from the very beginning to include RAMP and 
final implementation for the two VBA lanes, our goal has been 
125 days and that is what we will be tracking against. So, we 
will have timeliness measures, our average days to complete and 
the average age of our pending inventory.
    We also have a robust quality program in VBA. One of the 
things that GAO has asked us to do is to expand upon the 
details about that quality assurance program that we have, so 
we will do that as well.
    And then, finally, we do track production. We set 
production targets and we track against those targets, and we 
are also doing work on customer satisfaction surveys as well.
    So we are addressing all of those metrics, we have them, we 
will be using them and measuring them going forward.
    Ms. Brownley. Ms. Curda, does that sound consistent to you 
or correct?
    Ms. Curda. Well, that is certainly what has been discussed 
in plans, that they are working on it, they are doing things, 
but we haven't seen the specific goals and measures that they 
are talking about, particularly on the Board side of things. We 
have seen the VBA goals, but at the Board, two of the lanes 
lack timeliness goals.
    Ms. Brownley. And can you give us a timeline on when those 
would be clearly articulated and public?
    Ms. Mason. For the Board, the lanes that Ms. Curda is 
referring to I believe are the 90-day evidence lanes and the 
hearing lanes under the AMA. We do have the 365 lanes already 
identified, that we will have those decisions done in 365 days. 
The 90-day lane and the hearing lane, we are going to have to 
assess that and we are working to assess that. The promise we 
made to the stakeholders in March of 2016 was the legacy 
veterans and the 365 veterans have priority in the way we do 
our cases at the Board.
    And so we are continuing to assess that, and I am working 
to try and get some timeliness goals around those other two 
lanes, I am not there yet.
    Ms. Brownley. Well, you didn't give a timeline. So I 
understand everybody is working on it, but I think we would 
like to see a timeframe. And then obviously we would like to 
see what the performance metrics actually are, so that we can 
do our job, and part of our job is oversight and making sure 
that we are, you know, meeting these goals and obviously 
providing the best services that we can to our veterans.
    Mr. Lawrence, I wanted to ask you a very specific question 
relative to the L.A. regional office. The director has been 
missing for a year now, there is an interim person who is 
sitting in that position. I know, I wrote a letter along with 
my colleagues last November asking for a swift appointment to 
fill that position, we never received a response, and, to my 
knowledge, there is still not a permanent director.
    Can you give me an idea of when you plan on filling this 
position?
    Mr. Lawrence. I know I talk regularly with our folks who 
lead the field operations about openings and how we are going 
through the HR process to fill them. I am unfamiliar with the 
details of this, but I will follow up and get back to you on 
that.
    Ms. Brownley. Okay. Well, just, you know, the L.A. regional 
office covers eight California counties, it is a very large 
office, processes a lot of benefits, over $1.5 billion in 
annual payments, and not having that position filled is a 
problem.
    It seems as though the performance there, based on what we 
can discern from the data, has remained generally pretty steady 
over this last year, which, you know, is good, but it also 
seems to, you know, in July there is a little start of ticking, 
you know, in an upward projection, which obviously we want just 
the opposite.
    And my last question is to Ms. Curda--
    The Chairman. I ask the gentlelady to speed it up.
    Ms. Brownley. Oh, I apologize, I apologize. I yield back.
    The Chairman. I thank the gentlelady for yielding back.
    Ms. Brownley. I got carried away.
    The Chairman. You did get carried away, it's okay.
    Mr. Mast, you are recognized for 5 minutes.
    Mr. Mast. Thank you, Chairman.
    Mr. Lawrence, Ms. Mason, I wonder if you could, one of you 
help to enlighten the Committee, take us through a day in the 
life of somebody that is working through these appeals, whether 
it is somebody going through the higher-level appeal, whatever 
RAMP that they want to go through, what is the timeframe from 
the time they get something placed on their desk, when we are 
sitting here trying to do the math on saying, okay, there are 
however many tens of thousands of people waiting on these, 
there are new ones coming in, what does that look like for 
them? What is a day in the life, a day in the week, or a day in 
the month of, you know, for them doing all of that? Is it 
different for me? How different is it for somebody like General 
Bergman who has substantially more years of distinguished 
service than I do, or what is the difference?
    Ms. Mason. Well, I will start with the Board. A day in the 
life of an attorney at the Board is once the case gets to the 
Board--and we process those cases in docket order, and so every 
day there are cases coming in to the attorneys and the judges--
so the judge would assign the case to the attorney, the 
attorney would begin working the case. Depending on the number 
of issues, it may take a day, it takes a little bit more.
    Mr. Mast. Take me through that, working the case. He gets 
the case, working the case.
    Ms. Mason. Working the case means that they are going in 
through our electronic records system, looking at all the 
evidence in the record, and the Board, because it does a de 
novo review, the attorneys are required to review everything in 
the record and electronically, and review those records and 
make sure that we have identified all the issues, all the 
contentions, any concerns, anything that we haven't addressed 
at the Board, that if it is an administrative issue, then that 
is going to stop it--
    Mr. Mast. Does that mean they are reading every page of 
whatever--
    Ms. Mason. Yes.
    Mr. Mast [continued]. --is submitted for that item of their 
health that is being looked at?
    Ms. Mason. They are reading the entire claims folder. And 
these days it is electronic, so they are reading it 
electronically.
    Mr. Mast. How many pages could we be talking about?
    Ms. Mason. Thousands, thousands of pages. So--
    Mr. Mast. On one case?
    Ms. Mason. For one case, for one case. And if it is 
multiple issues, tens of thousands of pages, because we are 
talking about from the time--you know, we are looking at the 
service records, we are looking at the evidence that the 
veterans have submitted in support of their cases, we are 
looking at medical records, we are looking at hearing 
transcripts, anything in that record is what the attorneys are 
reviewing and looking at.
    And so depending on the complexity of the case and the 
number of issues and things like that, the attorneys can assess 
it very--you know, with the reading and the amount of time 
going through that, then they are assessing as they are reading 
through and making determinations about what they are doing 
with the cases.
    Then, usually the next day, they are writing. So they are 
writing the decision up for the judge. Sometimes it takes 
longer than two days. Sometimes the attorneys are working 
several cases at once, depending on what is going with their 
caseload, because the attorneys do approximately 3.25 cases a 
week at the Board.
    So those cases are moved through. They write up the 
decision, again through the template program we have. Through 
the assessment, there are conversations back and forth with the 
judge during that process. Then the decision goes in to the 
judge.
    Once the judge gets the decision, the judge--and the judges 
are deciding over 20 cases a week these days with what is 
current productivity, and again it depends on the number of 
issues in the case. So the judge is going then to assess the 
file and take a look at the file. The attorney will have tabbed 
the importance evidence that is vital to the judge and that is 
going to be connected through the interactive decision 
template, so they can link back to it through the decision, and 
be able to review and sign that decision.
    And then the decision goes out the door to dispatch, which 
takes a couple of days with the electronic signing of the 
decision and then the upload to VBMS, and then from there the 
case goes to VBA for effectuation.
    Mr. Mast. That research portion of it, what is your 
expectation of how long that should take? That seems like the 
most intensive portion of all of this. What is your 
expectation? Again, understanding that everybody has a 
different case, but what is the expectation there of 
reasonable?
    Ms. Mason. Realistically, that is 60 to 70 percent of the 
attorney's time on each case. So it--I can't tell you a set 
number of hours. It depends on the number of issues per case.
    Mr. Mast. Attorneys are pretty good about knowing how many 
hours they want to charge somebody. I would think that.
    Ms. Mason. They are pretty good. They are pretty good. The 
more senior attorneys are more efficient at it and we do have 
the specialty case team in place to help with that. But you 
know, as--
    Mr. Mast. So what is the expectation?
    Ms. Mason. A straightforward case that is fairly--a 
straightforward case would be somewhere between 8 to 10 hours 
for one of my experienced attorneys.
    Mr. Mast. Eight to ten hours for 1,000 to 10,000 pages?
    Ms. Mason. And that would be to include the writing time.
    Mr. Mast. That is absolutely alarming to me. Thank you for 
your responses.
    Ms. Mason. You are welcome.
    The Chairman. Thank you. Mr. Lamb, you are recognized for 
five minutes.
    Mr. Lamb. Thank you, Mr. Chairman. Mr. Secretary, can you 
talk about how you have engaged the regional offices in the 
transition from the Legacy process to RAMP, just to make sure 
what they--they have what they need for when the full 
implementation comes?
    Mr. Lawrence. Sure. Broadly, I have engaged the regional 
office as a part of, you know, taking over and engaging with 
them. I have established council or top ten folks to randomly 
provide me advice and I am convening with them tomorrow. But in 
terms of appeals specifically, let me enlist Mr. McLenachen 
because has--
    Mr. Lamb. Sure.
    Mr. Lawrence [continued]. --worked with them for a longer 
period of time.
    Mr. McLenachen. So one of the things that we did is we 
developed appeals modernization 101 training and we required 
every VBA employee that is related to claims processing, not 
just appeals, but just even claims processors to take that 
training. As of yesterday, we were at 99 percent completion on 
that training.
    In addition to that, the regional offices that are working 
on RAMP claims, they have received specialized training, both 
initial and follow up and they receive 100 percent review for a 
month when they start working those.
    If you look at Appendix C in the 90-day update to our 
implementation plan, there was a listing of all of the outreach 
and communications that we have done. I have personally visited 
regional offices that have the most eligible veterans and 
talked to local congressional staff, attorneys, VSO 
representatives, and our own employees to make sure everybody 
has a good understanding of the new system.
    So we have taken a very aggressive approach.
    Mr. Lamb. Have you received much feedback or buy in from 
the regional offices themselves? Like has that affected the way 
that you are doing the roll out?
    Mr. McLenachen. Yes. I--strong buy in from the regional 
offices. I think what we are really seeing when we go out 
locally is a lack of complete understanding. And between us, me 
and Chairman Mason, and the VSO representatives that have 
knowledge of the program, once that explanation is done then 
there definitely is complete commitment to it.
    Mr. Lamb. Okay. Do you know whether vacancies in the 
regional offices are going to complicate the implementation of 
this at all? Has that come up as you visited or talked to 
folks? I know in Pittsburgh, for example, near where I am from, 
we have an assistant director vacancy. Is that something you 
have seen around the Nation?
    Mr. McLenachen. So what I can tell you about is our appeals 
workforce. As the undersecretary said, 1,495 employees, we are 
almost at full strength on the appeals teams that do this work. 
We are down about 17 at this minute.
    Mr. Lamb. Okay. Chairman Mason, did you have something to 
add there? It looked like you were leaning in. I didn't--
    Ms. Mason. No.
    Mr. Lamb. Okay. Ms. Curda, do you believe with everything 
we have heard today, with everything you have studied before 
you came here today, do you believe it is possible to roll out 
this plan on time?
    Ms. Curda. I think it will be challenging. I think you can 
certainly always make improvements in the areas of risk 
management and risk reduction. Any risk you can identify and 
mitigate is going to increase your odds of success. And so what 
we are talking about here are odds and chances of success, not 
certainty.
    I think as it stands now, I am a little concerned about the 
lack of detail. But if the detailed information that the Board 
and VBA are talking about is available and made available to us 
to take a look at it, we might have greater assurance than we 
have right now.
    Mr. Lamb. Okay. Mr. Chairman, I yield back. Thank you.
    The Chairman. I thank the gentleman for yielding. General 
Bergman, you are recognized for five minutes.
    Mr. Bergman. Thank you, Mr. Chairman, and thank you to all 
of the panel for being here. If this was easy, it would already 
have been done. Okay, so we know you are all engaged. And 
Congressman Mast just left, but I told him on his way out thank 
you for allowing me to tee up what I was about to say on the 
front end and that is any general officer, and I will keep it 
to the Army and the Marine Corps at this point because we are 
largely infantry, and any general officer worth their sale 
knows that they do what they do every day for those young 
infantrymen and women who are the--at the pointy end of the 
spear and that never changes no matter while you are in 
uniform, but even after your uniform days have completed.
    So can we agree here as a group that a simple mission 
statement based upon the title of our hearing here is that to 
successfully implement appeals reform, is that a pretty simple 
mission statement?
    Mr. Lawrence. That is correct. Yes, we agree.
    Mr. Bergman. Okay. And when you implement a mission 
statement, someone has to be in command of that mission. And 
there is a difference. There is a unique difference in command 
and staff. That is why we have command and staff colleges. 
There are people in command and there are people on the staff 
providing that valuable input. And you are usually, over the 
course of time, you will establish yourself either as one of 
those commanders who is the person to be in command or as a 
really solid staff officer who supports that commander. And 
there is a difference between the two.
    So having said that, who is in command?
    Mr. Lawrence. This is somewhat of a unique situation, but I 
am not going to defer your question. In February 2019, the 
Board will be in command of appeals. At this point, for VBA, I 
am in command of the VBA Legacy appeal. The Chairman is in 
command of the Board's Legacy appeals.
    In my opening statement, that is why I referenced working 
closely together through this unique period of time. But in 
February, the Chairman will be in command.
    Mr. Bergman. Okay. So mission failure is not an option, but 
there are in the military terms' reliefs for cause, okay? And 
this could be mission failure. Is your organization set up to--
before the mission fails, to relieve a commander who maybe is 
not getting it done and all of a sudden, we wake up at the 11th 
or 11 hour 30, are you prepared to make changes if the 
milestones are not being met?
    Mr. Lawrence. Yes, sir. In fact, again in my opening 
statement, I alluded to the second week I was there, I began to 
meet regularly with the AMO office, and I meet with them 
regularly to monitor performance. And that is one of the things 
I think about regularly.
    Mr. Bergman. Yes, I hope this doesn't seem harsh. This is 
just reality. And the constituent population that we are 
serving here, the veterans, know that we have, as commanders, 
have held them accountable for mission accomplishment and their 
performance in that unit involved in that fight. And I know 
that they expect us to do the same at the highest levels.
    And as partners in this with you, in other words as a 
Committee Member trying to be part of the solution, not be part 
of the problem, stay out of your way, but at the same time, we 
hold ourselves accountable to our constituents here as--in our 
districts, but also as fellow Members of the Committee.
    I just wanted to hear you articulate to whatever level you 
would like the accountability within your system that if 
something goes bad, sooner rather than later, people will be 
either reassigned, whatever it is, so that the mission does not 
fail just because somebody said well, it is a--we have some 
flexibilities here.
    Mr. Lawrence. Sure. You have my assurance. And just so you 
know, my father was in the military, as was I. One of the 
things I learned from him was mission first, men always. And we 
talk about the mission all the time and what that is going to 
take.
    And as you know, a great deal of flexibility moving people. 
So yes, that would be my intention were that the reason.
    Mr. Bergman. Yes. There will be naturally after-action 
reports that occur that okay, lessons learned. We can do this 
better. We can do that better. But just saying well, we tried 
but we didn't get it. We didn't meet the deadlines. That is not 
acceptable. And I just appreciate all of your effort and 
whatever we can do to be part of the solution here with you to 
repeat that one more time, we are all in. So and I see my time 
is about to expire. So thank you. I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman for yielding. Ms. 
Kuster, you are recognized.
    Ms. Kuster. Thank you, Mr. Chairman. And thank you to the 
panel for being with us. We have had a lot of discussion this 
morning about deadlines and timing. I am going to shift gears 
here a little bit to the financing of it all. And I notice from 
the GAO report that one issue deserves extra attention.
    So in the plan, the VA has failed to, ``delineate the total 
resources required by VBA and the Board.'' On our part, we 
think it is unclear what the delineation would entail. But 
given the lack of information for cost between the discreet 
appeal systems, it is going to make our oversight more 
difficult.
    So I want to turn the question to the VA. What--why does 
your plan fail to keep separate account of cost for the VBA and 
the Board and how should we continue our oversight trying to 
make that distinction?
    Mr. Lawrence. Let me go first from the VBA perspective. I 
am going to have to research this further because I have a 
pretty good insight into cost. So I will ask Mr. McLenachen to 
jump in in terms of the interaction with GAO. But I commit to 
figuring that out why that is because as an economist, cost is 
something I understand. So we will figure this out. But I know, 
Dave, you work closely with them.
    Mr. McLenachen. Yes. One of the things that GAO asked us to 
do was improve our sensitivity analysis for our modeling that 
we have done. We have delineated how we are going to allocate 
our resources--excuse me--in VBA. In addition to that, in the 
present fiscal year 2019 budget. We have requested 605 
additional FTE. So we believe that we have hit the target on 
that financial piece that you are asking about.
    Ms. Kuster. In the past, has the money flowed back and 
forth between these accounts? I am just looking for our 
oversight to be able to delineate that distinction.
    Mr. Lawrence. No. They are--it is separate funding for VBA 
and for the Board.
    Ms. Kuster. Okay.
    Ms. Curda. Could we address that question because I think 
there is--
    Ms. Kuster. Yes.
    Ms. Curda [continued]. --some confusion--
    Ms. Kuster. Yes, thank you.
    Ms. Curda [continued]. --about the requirement and about 
how to implement that. And I just wanted to ask my colleague, 
Jamie, to just describe a little bit what we are seeing in the 
plan versus what we would expect to see.
    Mr. Whitcomb. So the plan requires VA to delineate the 
total resources between VBA and the Board and Legacy and new 
appeals processes. And in this latest plan, VBA provided FTE 
information, but the Board did not. And there was also not a 
delineation of other resource categories you would expect to 
see in processing Legacy and new appeals, like the IT piece, 
and communications with veterans and other stakeholders, those 
sorts of things are missing from the plan for that element.
    Ms. Kuster. All right. So that is helpful if we can get 
that information following up from the VBA and the VA. I think, 
you know, obviously in your testimony you talked about a 
significant number of new employees and I think while we 
support the mission of moving forward and addressing certainly 
the backlog and keeping up going forward, this Committee 
routinely is going back to our colleagues who are cost 
conscious and we need to use our oversight function to be on 
top of that.
    So if you could bring that information back to the 
Committee, that would be helpful. I am going to turn my last 
minute over to Ms. Brownley.
    Ms. Brownley. Thank you, Ms. Kuster. I just wanted to ask 
Ms. Curda in terms of--well, let me back up for a minute. I 
think this Committee, and certainly I am continually concerned 
about are the fact that there are so many positions across the 
VA that are unfilled positions.
    So my question to you is, do you think the VA has the right 
about of human capital plans and management capacities to 
implement--you know, to successfully implement this reform? 
Have you taken a look at that at all?
    Ms. Curda. We have not assessed whether they have adequate 
resources to implement this. I think--in terms of risk, when 
you have unfilled positions and a large change and new process 
to implement, that creates--you know, to the extent you have 
unfilled position, it does create additional risk that you 
won't have the resources needed to fully implement the reform.
    Ms. Brownley. Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentle lady for yielding. Ms. 
Radewagen, you are recognized for five minutes.
    Ms. Radewagen. Thank you, Mr. Chairman. And I also want to 
thank the panel for coming in today. Thank you for your 
service.
    My question here is for all of the witnesses at the table. 
Given that the title of this hearing is assessing whether VA is 
on track to successfully implement appeals reform, I would like 
to ask each of you to give VA a grade, A, B, C, D, or F on this 
assessment, what it would be, and why.
    Mr. Lawrence. Sure. I will go first. I would give us an A 
minus. I think some of our critique that our colleagues from 
GAO have rendered is fair and appropriate. And I wish that we 
were more complete in providing them the information. But 
overall, when I assess, as they indicated, a model of people, 
process, and technology. And when I do the review behind each 
of them, I think we are doing very well. And that is, in many 
ways, reflected in my confidence that we are going to be on 
time.
    Ms. Mason. I would agree with the Under Secretary that it 
is an A minus. Again, people, process, and technology is 
something the Board has been focused on for the past two and a 
half years and we are continuing to focus on that. And we will 
be on time.
    Ms. Curda. I would just say our assessment is based on the 
information that was provided in this plan, which is the report 
that was provided and updated recently. And we have also 
invited VA to provide additional information, which they have 
in some cases to supplement what is in here. And, you know, 
looking over all of this, I mean, without knowing some of the 
things that they are doing that aren't in plans, that aren't 
documented, and that we haven't seen, I would give them a C.
    It is intermediate. They are on their way. They could--this 
could be much better in terms of what we are seeing.
    Mr. McLenachen. So I hate to disagree with my boss, but 
that is the position you have put me in. But just based on our 
requirements of addressing GAO's recommendations, I will lower 
it to a B.
    Mr. Thrower. I think I would agree with Mr. McLenachen, 
just simply from the point of view--for one reason only. I 
would give us a B because I think we could do a better job of 
communicating across the board about our progress and our 
status and that would help. But I think overall in terms of our 
effort and where we are, I am totally on board with the Under 
Secretary and the Chairman that we are going to make it on 
time, that we are on track, and that we are going to deliver.
    Mr. Hipolit. From my perspective, I would also say a B just 
because I don't like to be overly optimistic. I know we still 
have a lot of work to do and I want to give us a little bit of 
a challenge to get up to the A level.
    But one thing that I have observed, we mentioned earlier 
about the regulations and that has been part of the process I 
have been fairly heavily involved in. And the proposed rule 
notice for a very major set of regulations to implement this 
program is with the Federal Register. And I understood from--
what I learned this morning, it won't be published today, but 
publication in imminent and that is a big step in the process.
    I think we are on track to get the regulations in place in 
order to implement on time.
    Ms. Radewagen. And now this question is for Chairman Mason. 
Chairman Mason, a key component of VA space allocation plan to 
accommodate new hires is to allow Board employees with little 
VA experience to participate in telework. What are VA's plans 
to collect information from supervisors to ensure that telework 
is not negatively affecting the quality of work or morale?
    Ms. Mason. We currently have a very strong telework program 
with the Board. We have over 475 people, I believe current 
numbers are around 488 people on either telework or full remote 
status. We do have a very strong and robust program in 
evaluating whether someone is ready to go on telework and that 
is worked through the supervisor.
    During the period that they are on telework and from then 
on, we assess them just as we assess all of our staff, our 
attorney staff, who are--whether they are in the office or on 
telework, we work with them. If they flounder and we provide 
support, and if need be, they are offered the opportunity to 
come back into the office and work with us.
    But the telework program for our space program does seem to 
work very well. And the majority of the people on telework 
right now, I would think--I would have to double check the 
numbers, but I believe the majority of our telework staffers 
are meeting or exceeding goal. Of current staff, we have 92 
percent at full successful at the current status.
    Ms. Radewagen. Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentle lady for yielding. And Mr. 
Correa, you are recognized.
    Mr. Correa. Thank you, Mr. Chairman. General question, as 
well, to the panel. In appeals reform, when you hear reform, 
you think positive and maybe the challenges of the risks 
inherent. So my question is how do you mitigate the risk? I 
mean, how do you make sure that as you jump from this to 
something better that we don't overlook certain things.
    Are you having any pilot projects to make sure that maybe 
everything, all the I's are dotted and all of the T's are 
crossed? What are we doing to make sure that we are not leaving 
anything behind?
    Mr. Lawrence. Sure. Let me go first and then I will list 
others to answer as you have directed. A couple of things, sir. 
Yes, it is not correct, I don't think, to call it a pilot but 
the RAMP, the Rapid Appeals Modernization Program, has given us 
real insight to the veteran's experience, our ability to 
deliver, and the like. So that is pretty important.
    In addition, the primary tool as the leader is, you know, 
regular reviews that are detailed enough to better understand, 
you know, how this is all going to work. And quite frankly, 
candid conversation about what the risks are, how we are 
mitigating them, and evaluation of that as we work our plans 
going forward. So let me make sure I have enough time.
    Ms. Mason. I would agree with the Under Secretary. Ongoing 
meetings and assessments and check-ins and make sure we are on 
target. The Board is--just concluded the initial phase of the 
Beam program and we are collecting that data and moving out 
with that. That is a small-scale test program. We will also be 
rolling out the RAMP assessment in October. And we will also be 
doing some sensitivity reviews, surveys at those times to 
gather information. So--as well as the ongoing conversations 
with our stakeholders.
    Mr. Correa. Go ahead.
    Mr. McLenachen. I would just add that the legislation 
actually sets us up for making sure that we are doing that 
mitigation assessment. We had to do the implementation plan, 
the regular updates. We have the assistance of GAO, so there is 
a lot of assessment of what the risks are and how we might 
address them in that implementation plan.
    Mr. Hipolit. If I could add to that too. I think the level 
of commitment and communication that I have observed on this 
process has been very exemplary. I have been with the agency 
for a long time and we have been communicating on a really 
regular basis between the Veterans Benefits Administration, the 
Board of Veterans Appeals, the Office of General Counsel.
    I think that has really helped us keep on track and 
recognize what the obstacles we face are and make sure nothing 
is slipping through the cracks.
    Mr. Thrower. Yes. And really, I guess, to close out for our 
team on this one is it is a combination of many of those 
things. It--we have integrated working teams that kind of 
cross--across anything that is working in the IT space. It is a 
very close collaboration with the VBA team and the Board team. 
So we are all on the same page all of the time.
    Regular reviews. I meet with Dr. Lawrence and Chairman 
Mason on a very regular basis, as do our teams and present 
status and update. And along the way is also in terms of 
building and along the way touch points and cushions to be able 
to modify and adjust as we need to along the way.
    Mr. Correa. Let me just thank all of you for the work you 
are doing, the effort, and also let you know this is not your 
job. It is our job. So if there is anything we can do, input--
as fast as you can give us that information so we can react. As 
legislatures, we would be much appreciated. And again, I thank 
you for the good work you do for all of our veterans.
    The Chairman. I thank the gentleman for yielding. Mr. 
Poliquin, you are recognized.
    Mr. Poliquin. Thank you, Mr. Chairman. Mr. Chairman, today 
we have two very important guests with us today I would like to 
introduce you to, Mr. Graham Barry (ph) and Mr. James Hotham 
(ph) have traveled all the way from the great State of Maine. 
They are student leaders, community leaders when it comes to 
the Future Farmers of American organization. And I would like 
to acknowledge them, Mr. Chairman, and have Mr. Barry and Mr. 
Hotham stand so the rest of America can see you. Go ahead, 
gentlemen, stand up, please.
    Thank you very much, Mr. Chairman. Folks, thank you very 
much for being here. We are all on the same page. We want you 
to be incredibly successful. The great State of Maine has about 
nine and a half to ten percent of our population of veterans. 
We love our veterans in the State of Maine.
    Our first VA hospital in the country is located in the 
State of Maine in Augusta, Togus. I think it was formed in 1865 
to 1866 to take care of our veterans after the Civil War. That 
tells you the commitment we have to our veterans.
    And I will tell you, Mr. Chairman, traveling throughout the 
great State of Maine, I hear as often as anything else when it 
comes to our veterans' community that the backlog on the 
appeals that they have filed is something that really drives 
them batty. And I know you know that, and we are trying to fix 
it. And we are all on board to try to help you do that.
    Just as a curiosity, we have about seven million veterans 
now that we are taking care of in our country, Mr. Lawrence, 
roughly, what percent of them are on some form of disability? 
Roughly.
    Mr. Lawrence. [Nonverbal response.]
    Mr. Poliquin. Does anybody have that answer? It doesn't 
have to be you.
    Mr. Lawrence. I am reluctant to guess on that one, sir. I 
will get back to you with more--
    Mr. Poliquin. That would be great. If you can get back to 
me on that, that would be great. Can someone tell me here, Mr. 
Lawrence, we will point to you if you don't mind, or ask you 
rather that question, what percent of your project is done, 
roughly? Roughly.
    Mr. Lawrence. Sure, let me defer to Mr. McLenachen and Mr. 
Thrower.
    Mr. Poliquin. Sure, absolutely. Sir.
    Mr. McLenachen. So I would say probably about, in my view, 
about two-thirds.
    Mr. Poliquin. Great.
    Mr. McLenachen. For example, the regulations, procedures, 
all of the policies around implementing the law. So really what 
we need going forward is once we get the IT piece in place, I 
am pretty confident that we are--
    Mr. Poliquin. And you are going to--and you support what 
has been said here earlier that you folks are going to meet 
your goal on time, correct?
    Mr. McLenachen. Yes.
    Mr. Poliquin. Okay. That is early February of 2019 if I 
have that correct. Okay. Do you still have a claims backlog 
that is through the roof that it was before we started this 
process?
    Mr. Lawrence. No. No.
    Mr. Poliquin. Good.
    Mr. Lawrence. The claims backlog has been brought down with 
a lot of work prior to my arrival. And right now it hovers 
between 70,000 claims that are over 125 days and 80,000.
    Mr. Poliquin. Okay. I think, Mr. Chairman, that was about 
400,000 when we started this process. Maybe I have got that 
wrong, but it was a heck of a lot larger. Yes.
    Ms. Mason. The claims are different from appeals. The 
appeals are still--
    Mr. Poliquin. Thank you.
    Ms. Mason [continued]. --about 400,000--
    Mr. Poliquin. I appreciate that correction. Thank you very 
much. Can--Mr. Lawrence, can you tell me to the best of your 
ability the fact that in some areas, what I have heard today is 
that we are behind in some area. What would be the number one 
thing that comes to mind to you why we have slipped, if we 
have, in certain areas?
    Mr. Lawrence. Yes. Respectfully, I don't mean to quibble on 
slipping. I think we are on schedule. And I think that the 
offer I made earlier to meet with your staff to explain that, 
especially in the IT area because I know we have--
    Mr. Poliquin. Great.
    Mr. Lawrence [continued]. --bantered numbers. I take 
seriously the feedback from GAO and I want to look into that to 
figure out why they didn't give us at least an A minus in my 
scale. But I am confident from broad strokes we are on 
schedule.
    Mr. Poliquin. Well, you might guess that when you say A 
minus, and the GAO says C then I have--it raises some antenna 
that I have. But we will take it as it is.
    The great State of Maine has two districts. I represent the 
second district, which is highly rural. We have Lewiston and 
Auburn, which is about 35,000 people. We call it L.A. And then 
we have Bangor, which has about 35,000 people. Then we have 400 
small towns. And Mr. Barry and Mr. Hotham in the back of the 
room are from two of those small towns.
    What I am concerned about is are you folks going to be able 
to communicate at the right time the changes to the appeals 
process, effectively to folks in rural America, which is very 
different in many ways than folks that live in the urban areas. 
Mr. Lawrence?
    Mr. Lawrence. Yes, sir. This has been one of the issues 
that I have been counseled about as soon as I very first showed 
up at the beginning of the process about the unique features of 
states, like you described, that are rural.
    So something more broadly, VBA is thinking about all the 
time. In terms of the tools and the techniques we use. I don't 
want them to be east coast centric, but obviously access to 
technology and the like. In addition, we are thinking seriously 
about the relationship we have--the VBA has with the states, 
and the states then have with their networks as a way to 
communicate with folks.
    Also as Chairman Mason and Mr. McLenachen--it is the 
repetition and getting out and quite frankly through the VSO's, 
explaining in a very personal way the benefits of being 
involved.
    Mr. Poliquin. We have formed in the great State of Maine a 
veteran's advisory panel to help me to make sure I get all of 
the on-ground information I need to bring back to our Committee 
with the Chairman. And if we can help in any way to communicate 
this, we certainly will. We are all on board. Good luck, but we 
will be holding you accountable. Thank you. Thank you, Mr. 
Chairman.
    The Chairman. I thank the gentleman for yielding back. And 
I will be in the great State of Maine to clear all of that up 
for Mr. Poliquin. We will be up there to--Ms. Brownley, did you 
get your question answered?
    Ms. Brownley. I did, but may I ask him one thing?
    The Chairman. You can.
    Ms. Brownley. Thank you, Mr. Chairman. I just wanted to say 
that I appreciate all of you being here and I appreciate you, 
Mr. Lawrence, for right up-front stating deadlines and 
timeframes. We don't get that that often and so I appreciate 
all of the work that you are doing. And my take away from this 
hearing is that you are working diligently to succeed. So thank 
you very much.
    The Chairman. Thank you and no further questions. I thank 
you for being here today. It has been, again, a very productive 
hearing. Mr. Takano, do you have any closing comments?
    Mr. Takano. Yes, just--let me just say that I did 
acknowledge Congresswoman Titus earlier for her--work on the 
appeals modernization legislation. But I also want to 
acknowledge Elizabeth Esty. She took the ball and ran with it. 
And as the--our Ranking Member on the Subcommittee 
jurisdiction, brought the final produce along with the Chairman 
on the majority side. And so we are--to the floor.
    And I am--so we are very, very proud of this legislation. 
The implementation is the key part. I am very concerned that 
the GAO is--would give you a current rating of a C and it is 
imperative that you--Dr. Lawrence, are responsive and get the 
more detailed documents and planning accomplished.
    And in particular, the generalized goals and objectives 
prior to the processes, those must drive the processes. And so 
I am cautiously optimistic that this is going to come to 
fruition, as we hope it will. But nevertheless, this is a 
tremendous, tremendous undertaking and I can't stress enough 
that Congress has given you the legislative tool and the 
resources.
    And so we have asked you, do you have enough resources? Do 
you have what you need? The indication is yes. So there is no 
reason for us not to succeed and I ask that we do succeed. So 
thank you.
    The Chairman. I thank the gentleman for yielding. And I ask 
unanimous consent that written statements provided for the 
record be placed into the hearing record without objection, so 
ordered. And I also ask unanimous consent that all Members have 
five legislative days in which to extend their remarks and 
exclude extraneous material, and without objection, so ordered.
    And I will, just to echo Mr. Takano's comments, I think 
probably in our offices, the thing we hear the most about are 
either VA health care issues or VA disability claims and 
appeals. I think this is a gigantic step forward from 2009 and 
2010 when there were a million claims. People kind of forget 
that eight years ago.
    So the VA has made a herculean effort to lower this, and 
certainly with only 70 or 75,000 claims, that are over 125 
days, that is a huge improvement. So that is a big shout out. 
And Dr. Lawrence, thank you. I know this is your first time to 
testify in front of the Committee. We appreciate you being here 
and on the quarter system, I did, while you were doing this, I 
took all the grades down. You are 3.1. That is your GPA for 
this quarter. So--
    Mr. Lawrence. I think they all went to better schools than 
me, sir.
    The Chairman [continued]. --to let you know. And the 
witnesses, you are all excused and no further comments. The 
meeting is adjourned.

    [Whereupon, at 11:33 a.m., the Committee was adjourned.]




                            A P P E N D I X

                              ----------                              

        Prepared Statement of Honorable Paul R. Lawrence, Ph.D.

    Good morning Chairman Roe, Ranking Member Walz, and Members of the 
Committee. Thank you for inviting us to provide an update on VA's 
progress implementing the Veterans Appeals Improvement and 
Modernization Act of 2017 (AMA). Joining me today are Ms. Cheryl Mason, 
Chairman of the Board of Veterans' Appeals; Mr. Richard Hipolit, Deputy 
General Counsel; Mr. Lloyd Thrower, Deputy CIO, Account Manager for 
Benefits, Office of Information and Technology (OI&T); and Mr. David 
McLenachen, Director, Appeals Management Office, Veterans Benefits 
Administration.
    AMA, enacted on August 23, 2017, is the most significant statutory 
change affecting VA appeals in decades, and I wish to thank the 
Committee for its work on this much-needed comprehensive legislation 
that is transforming an archaic process into one that makes sense for 
Veterans and their families, their advocates, VA, stakeholders, and 
taxpayers. I appreciate the opportunity to discuss the progress of 
implementation and actions we are taking to manage the legacy appeals 
inventory.
    I am pleased to report that VA is making progress on Appeals 
Modernization and remains on track for implementation in February 2019. 
VA remains deeply committed to helping Veterans receive the benefits 
that they have earned. While the proposed regulations are at the 
Federal Register for publication, the Department is also focused on 
additional aspects of implementation, to include developing and 
updating information technology (IT) systems for the new claims and 
appeals process, developing and refining meaningful performance metrics 
to track progress, providing training across VA for employees, and 
collaborating in the implementation process with stakeholders - 
Veterans Service Organizations (VSOs), Veteran advocates, Congressional 
stakeholders, and the Government Accountability Office (GAO), among 
others.
    VA is implementing a multifaceted strategy for managing the new 
process while concurrently reducing legacy appeals. The Rapid Appeals 
Modernization Program (RAMP) is allowing Veterans with legacy appeals 
to have appeals heard under the new system, and the Board's Early 
Applicability of Appeals Modernization (BEAAM) program is providing 
data to inform preliminary assumptions about Veterans' choices, 
understanding, and experiences. This strategy reflects the Department's 
ongoing commitment to continue reducing the legacy appeals inventory 
while simultaneously developing technologies, processes and procedures 
for implementing the new statute.

RAMP, the Legacy Appeals Strategy, and VBA Production

    AMA authorized VA to create programs to test assumptions in the 
implementation of the new claims and appeals system. In response, VA 
launched RAMP on November 1, 2017, giving eligible Veterans with 
disability compensation appeals the voluntary option to have their 
decisions reviewed in the Higher-Level or Supplemental Claim Lanes 
outlined in AMA. RAMP gives Veterans early access to the benefits of 
the new system and helps to lower the number of appeals pending in the 
legacy system during transition.
    As advantageous as RAMP may be for eligible Veterans, participation 
in RAMP is voluntary. To help communicate eligibility, VBA has sent 
over 200,000 letters to Veterans and has conducted significant outreach 
activities through both VSO and Congressional stakeholders. This 
outreach has produced a RAMP opt-in rate of more than 13 percent. As of 
June 30, 2018, more than 30,000 Veterans had opted into RAMP. To date, 
more than $30 million in retroactive disability compensation benefits 
have been paid to Veterans in the program. VA is processing RAMP claims 
in an average of 78 days, well below the processing goal of an average 
of 125 days for the two VBA lanes. RAMP is a significant 
accomplishment. It represents a meaningful choice for Veterans before 
implementation of the statute in February 2019.
    VBA has also been focusing on resolving legacy appeals for 
Veterans. At the end of June, compensation and pension appeals 
inventory had decreased by almost 13 percent, and appeals production 
was 8.7 percent above target.

Board Production and BEAAM

    The core mission of the Board is focused on holding hearings and 
delivering decisions which provide answers to Veterans. I am proud to 
announce that the Board has delivered a record production output of 
over 65,000 decisions thus far in fiscal year (FY) 2018, a historic 
high for any FY, and is on track to deliver over 81,000 decisions to 
Veterans by the end of the FY. The Board's continuing strategy to 
reduce the pending inventory of appeals focuses on: 1) re-engineering 
processes to include introducing a new decision template and a 
specialty case program, 2) exploring new case review techniques, 3) 
allowing the Board to issue timely decisions soon after a Veteran has a 
hearing with a Veterans Law Judge, and 4) using telework to retain 
experienced personnel. In addition to strategies that support 
production goals, the Board is aligned with VBA's RAMP efforts to help 
reduce the number of appeals coming to the Board.
    From May 1 through the end of June 2018, VA began the Board's BEAAM 
program, a small-scale research program to collect preliminary data 
about initial Veterans' choices and experiences. While the results of 
BEAAM are preliminary and still under review, Veterans participating in 
BEAAM report that they are optimistic about the changes. Veterans also 
appreciate that VA is working with them and their representatives in 
preparation for the implement of AMA.

Information Technology and Digital Services

    The Department has undertaken enterprise-wide efforts to modernize 
the appeals process through improvements in technology, and I am 
pleased to report that these activities are on track and already 
helping to improve internal processes at VA.
    OI&T and the United States Digital Service at VA (DSVA) prioritize 
three areas to ensure the Board is ready to implement Appeals 
Modernization: functionality for establishing new appeals, scheduling 
hearings, and managing the new dockets and workflow inherent in the new 
law. In the area of establishing appeals, DSVA continues work on the 
Caseflow Intake system to ensure that appeals, supplemental claims, and 
higher-level reviews are appropriately tracked. The DSVA team is also 
developing a Caseflow Hearing Schedule system to improve the Board's 
scheduling of legacy and AMA hearings. With Caseflow Queue, the DSVA is 
developing functionality to manage five dockets at the Board and 
provide tools to all Board users to streamline work flow, automate 
tasks, and improve efficiencies in the processing of appeals.
    The Board and DSVA rolled out the Vets.gov Appeals Status Tool in 
March 2018 to provide Veterans a better understanding of how the 
appeals system works and give Veterans transparency on where they are 
in the appeals process. DSVA will continue developing additional online 
content and functionality in an effort to increase Veterans' 
understanding of the new processes under AMA.
    In addition to direct review at the Board, the provisions of the 
law allow Veterans to obtain review of claims decisions within VBA. VA 
is working to ensure synchronization between DSVA and VBA design 
efforts in conjunction with necessary prioritization of VA IT 
resources. VBA has delivered IT system requirements for necessary 
appeals modernization enhancements within the Veterans Benefits 
Management System (VBMS) that will support automatic establishing, 
tracking, documenting, and distributing workload for claims decision 
reviews under the new process.
    If a Veteran seeks review on more than one issue, the Veteran will 
have the ability to elect a separate review path for each. OI&T 
developers and DSVA are partnering to modify both VBMS and the Caseflow 
system to ensure full traceability and reporting of the adjudication of 
each issue, regardless of which review path a Veteran has chosen to 
pursue. This capability is on track for delivery at the end of this 
calendar year to ensure Veterans are fully able to leverage the 
flexibility allowed by the law as soon as it goes into effect.

Workforce Planning, Training, and Human Capital Strategy

    To ensure smooth implementation, the Board is undertaking an 
aggressive workforce plan to recruit, hire, and train new employees. 
The Board is currently on pace to hire up to a total of approximately 
1,050 full time equivalents (FTEs) by the end of the FY. The Board 
added approximately 250 FTEs from 2016 to 2018, with an additional 150 
FTEs expected between July 2018 and September 2018. The majority of 
these hires are attorneys responsible for preparing decisions for 
Veterans Law Judges. The Chairman also recently recommended eight 
Veterans Law Judge candidates to fill open vacancies.
    VBA's compensation and pension appeals program is presently 
supported by 1,495 FTEs. VBA has requested an additional 605 FTEs in 
the FY 2019 President's budget to process legacy compensation and 
pension appeals and decision reviews under the modernized process. To 
best maximize its resources and enable efficiencies, VBA will 
centralize these additional assets to conduct decision reviews under a 
unified organizational structure that will include the establishment of 
two Decision Review Operation Centers (DROCs). VBA will also convert 
the current Appeals Resource Center (ARC) in Washington, DC, into a 
third DROC using existing assets.
    The Board and VBA collaborated on training and outreach activities 
for employees and stakeholders, to include for VSOs and Congressional 
staff. The Board is also conducting ongoing internal training for both 
its legal and administrative staff. Since the implementation of RAMP in 
November 2017, VBA has continuously provided updated training for 
employees directly involved in public contact teams, intake processing 
centers, and appeals teams regarding RAMP and the future of the 
decision review process. VBA developed and continues to deliver Appeals 
Modernization training to its employees, which provides a comprehensive 
overview of full implementation and a greater awareness of the RAMP 
pilot.
    Moreover, VBA has provided additional claims processing training as 
VBA has expanded from the initial RAMP processing site - ARC - to 
select Regional Office appeals teams across the Nation. These appeals 
teams are dedicated to RAMP processing, and VBA has provided each team 
with both instructor-led and refresher training. VBA is leveraging the 
feedback, best practices, and lessons learned from RAMP training events 
in the development and planned delivery of training materials for full 
implementation.

Stakeholder Engagement

    VA worked collaboratively with a wide spectrum of stakeholder 
groups to refine the new VA claims and appeals process. VA is currently 
holding regular discussions with VSOs, Veteran advocates, Congressional 
stakeholders, and GAO. VA is also listening to Veterans to help improve 
the services provided by the Department. The dedicated engagement of 
these people and organizations is providing VA with invaluable 
feedback, which is aiding VA efforts to: 1) develop new forms, 2) 
establish internal standard operating procedures, 3) create training 
materials, and 4) develop communications and outreach products for 
Veterans. VA will also fully consider comments received after a notice 
of proposed rulemaking is published. VA is grateful to all stakeholders 
for their continued contributions of time, energy, and expertise in 
this effort.
    VA is working strategically to increase awareness of appeals 
modernization and RAMP through a combination of direct outreach and 
increased communications products. Beyond the local outreach that VA 
continues routinely, the Department engages with Veteran stakeholders 
to disseminate information through national conferences and training 
events. Through coordination and collaboration, senior leadership from 
the Board and VBA have provided approximately 25 such outreach sessions 
so far this year, with several more scheduled throughout the fall. VA 
is expanding its communications and has initiated discussions with its 
Change Management Agents, Outreach Coordinators, and other influencer 
groups at its 56 Regional Offices.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. We would be pleased to respond 
to any questions that you, or other Members, may have.

                                 <F-dash>
                Prepared Statement of Elizabeth H. Curda
VA DISABILITY BENEFITS

Some Progress, but Further Steps Needed to Improve Appeals Reform 
    Planning

    Chairman Roe, Ranking Member Walz, and Members of the Committee:

    I appreciate the opportunity today to provide an update on the 
Department of Veterans Affairs' (VA) plans for implementing a new 
disability appeals process while still attending to appeals under the 
current, or legacy, process.
    VA provides cash benefits to veterans for disabling conditions 
incurred in or aggravated by military service, paying about $72 billion 
to about 4.5 million veterans in fiscal year 2017. If veterans are 
dissatisfied with VA's initial decision they can appeal-first to the 
Veterans Benefits Administration (VBA) and then, if not satisfied 
there, to the Board of Veterans' Appeals (Board), a separate agency 
within VA. For appeals resolved in fiscal year 2017, veterans waited an 
average of approximately 3 years from the date they initiated their 
appeal to resolution by either VBA or the Board-and an average of 7 
years for appeals resolved by the Board. Due in part to the challenges 
VA faces managing large workloads and deciding disability claims and 
appeals in a timely manner, GAO in 2003 designated VA disability 
compensation, along with other federal disability programs, as one of 
the government's highest risk areas. \1\
---------------------------------------------------------------------------
    \1\ Disability programs are an area that we continue to monitor on 
our high-risk list. See GAO, High-Risk Series: Progress on Many High 
Risk Areas, While Substantial Efforts Needed on Others, GAO 17 317 
(Washington, D.C.: Feb. 15, 2017).
---------------------------------------------------------------------------
    The Veterans Appeals Improvement and Modernization Act of 2017 
(Act) makes changes to VA's disability appeals process by replacing the 
current appeals process with one that gives veterans various options 
for further review by VBA or to bypass VBA and appeal directly to the 
Board. \2\ The Act further requires VA to submit a comprehensive plan 
for implementing the new appeals process to the appropriate committees 
of Congress and GAO. \3\ (VA submitted its plan to GAO on November 22, 
2017.) The Act delineates 22 legally required elements of this plan. In 
addition, the Act requires VA to provide progress reports to the 
appropriate committees of Congress and GAO at least every 90 days, 
until the Act's changes to the appeals process generally go into effect 
and then at least every 180 days after this date for 7 years. VA 
submitted progress reports in February and May 2018, and its next 
progress report is due in August 2018.
---------------------------------------------------------------------------
    \2\ Pub. L. No. 115-55, <l-arrow> 2, 131 Stat. 1105, 1105.
    \3\ The Act defines ``appropriate committees of Congress'' as the 
Committee on Veterans' Affairs and the Committee on Appropriations of 
the Senate, and the Committee on Veterans' Affairs and the Committee on 
Appropriations in the House of Representatives.
---------------------------------------------------------------------------
    The Act also includes a provision for GAO to assess whether VA's 
appeals plan comports with sound planning practices and identify any 
gaps in the plan. \4\ In our March 2018 report assessing VA's plan, we 
concluded that while VA's November 2017 plan reflected aspects of sound 
planning, improvements in planning are still needed to ensure 
successful appeals reform. We recommended VA's plan (1) address all 
legally required elements in the Act; (2) articulate how it will 
monitor and assess the performance of appeals processes; (3) augment 
its project plan for implementation; and (4) address risk more fully. 
\5\ VA agreed with our recommendations. Subsequently, in April 2018 we 
designated two of our four recommendations-monitoring and assessing 
performance as well as addressing risks-as ``priority recommendations'' 
for VA to implement. \6\
---------------------------------------------------------------------------
    \4\ Pub. L. No. 115-55, <l-arrow> 3(c), 131 Stat. 1105, 1118.
    \5\ GAO, VA Disability Benefits: Improved Planning Practices Would 
Better Ensure Successful Appeals Reform, GAO 18 352 (Washington, D.C.: 
March 22, 2018). We also discussed our work and proposed 
recommendations in a January 2018 testimony. See GAO, VA Disability 
Benefits: Opportunities Exist to Better Ensure Successful Appeals 
Reform, GAO 18 349T (Washington, D.C.: Jan. 30, 2018).
    \6\ Priority recommendations are open recommendations GAO believes 
warrant priority attention from heads of key departments and agencies.
---------------------------------------------------------------------------
    My statement today addresses VA's progress in implementing the four 
recommendations. Specifically, it summarizes steps VA has taken to 
address GAO's recommendations identified in our March 2018 report, and 
what aspects of our recommendations that VA has yet to address. \7\
---------------------------------------------------------------------------
    \7\ GAO 18 352.
---------------------------------------------------------------------------
    For this statement, we reviewed VA's May 2018 updated appeals 
reform plan and information we received from VA officials about any 
significant steps taken to implement our March 2018 recommendations. We 
also interviewed relevant VA officials and reviewed information related 
to VA's progress in addressing four related recommendations from work 
that we conducted prior to enactment of the Act. \8\ The work upon 
which this statement is based was conducted in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
---------------------------------------------------------------------------
    \8\ We have been monitoring VA's progress in addressing a related 
set of five recommendations in our 2017 report on VA's appeals 
planning. See GAO, VA Disability Benefits: Additional Planning Would 
Enhance Efforts to Improve the Timeliness of Appeals Decisions, GAO 17 
234 (Washington, D.C.: March 23, 2017). Specifically, we made five 
recommendations to improve VA's ability to implement its proposed 
reform to the appeals process while addressing a growing appeals 
workload, with which VA agreed in principle. In summary, we recommended 
that VA develop: (1) a detailed workforce plan, (2) a complete schedule 
of information technology (IT) updates, (3) better estimates of future 
workloads and timeliness, (4) a robust plan for monitoring appeals 
reform, and (5) a strategy for assessing whether the new process 
improves veterans' experiences over the current process. We also 
suggested that Congress require VA to pilot test appeals reform 
changes. As of July 2018, these five recommendations remained open. 
However, we plan to close the recommendation related to VA developing 
better estimates of future workloads and timeliness.

---------------------------------------------------------------------------
Background

VA's Current Disability Compensation Appeals Process

    VA's process for deciding veterans' eligibility for disability 
compensation begins when a veteran submits a claim to VA. \9\ Staff in 
one of VBA's 56 regional offices assist the veteran by gathering 
additional evidence, such as military and medical records, that is 
needed to evaluate the claim. Based on this evidence, VBA decides 
whether the veteran is entitled to compensation and, if so, how much. A 
veteran dissatisfied with the initial claim decision can generally 
appeal within 1 year from the date of the notification letter sent by 
VBA.
---------------------------------------------------------------------------
    \9\ For additional details about VA's current and new appeals 
processes and the Act, see GAO 18 352.
---------------------------------------------------------------------------
    Under the current appeals process (now referred to by VA as the 
legacy process), an appeal begins with the veteran filing a Notice of 
Disagreement. VBA then re-examines the case and generally issues a 
Statement of the Case that represents its decision. A veteran 
dissatisfied with VBA's decision can file an appeal with the Board. In 
filing that appeal, the veteran can indicate whether a Board hearing is 
desired. Before the Board reviews the appeal, VBA prepares the file and 
certifies it as ready for Board review. If the veteran requests a 
hearing to present new evidence or arguments, the Board will hold a 
hearing by videoconference or at a local VBA regional office. The Board 
reviews the evidence and either issues a decision to grant or deny the 
veteran's appeal or refers (or remands) the appeal back to VBA for 
further work.

VA's New Appeals Process

    The Act made changes to VA's appeals process that will generally 
take effect no earlier than February 2019, which is approximately 18 
months after enactment. \10\ According to its appeals plan, VA intends 
to implement the Act by February 2019, by replacing the current appeals 
process with a process offering veterans who are dissatisfied with 
VBA's decision on their claim five options: two of those options afford 
the veteran an opportunity for an additional review of VBA's decision 
within VBA, and the other three options afford them the opportunity to 
bypass additional VBA review and appeal directly to the Board.
---------------------------------------------------------------------------
    \10\ Pub. L. No. 115-55, <l-arrow> 2, 131 Stat. 1105, 1105.
---------------------------------------------------------------------------
    Under the new appeals process, the two VBA options will be:

    1. Request higher-level review: The veteran asks VBA to review its 
initial decision based on the same evidence but with a higher-level 
official reviewing and issuing a new decision.

    2. File supplemental claim: The veteran provides additional 
evidence and files a supplemental claim with VBA for a new decision on 
the claim. The veteran could also request a VBA hearing.

    The three Board options will be:

    3. Request Board review of existing record: The veteran appeals to 
the Board and asks it to review only the existing record without a 
hearing.

    4. Request Board review of additional evidence, without a hearing.

    5. Request Board review of additional evidence, with a hearing.

    In November 2017, VA initiated a pilot test of the new VBA higher-
level review and supplemental claim options. According to VA's appeals 
plan, a purpose of this pilot-the Rapid Appeals Modernization Program 
(RAMP)-is to reduce legacy appeals by providing veterans with a chance 
for early resolution of their claims within VBA's new process. 
Participation in RAMP is voluntary, but veterans must withdraw their 
pending legacy appeal to participate, according to VA's appeals plan.

VA Has Addressed Some Aspects of GAO's Recommendations on Appeals 
    Reform Planning

    In our March 2018 report, we found that VA could help ensure 
successful implementation of appeals reform by addressing gaps in its 
planning. We recommended four actions that VA should take: (1) address 
all legally required elements required by the Act; (2) articulate how 
it will monitor and assess the performance of the new appeals process 
compared to the legacy process, (3) augment its master schedule to 
manage the project, and (4) address risk more fully. VA has taken steps 
in response to all four, but has not fully addressed our 
recommendations.

VA Has Yet to Provide Complete Information on GAO's Recommendation to 
    Address the Act's Required Elements

    In our March 2018 report, we found that VA's November 2017 plan for 
implementing a new disability appeals process while attending to 
appeals under way in the current (legacy) process, addressed most, but 
not all, elements required by the Veterans Appeals Improvement and 
Modernization Act of 2017. \11\ Specifically, we found that VA's 
appeals plan addressed 17 of 22 elements required by the Act. For the 
five remaining elements, it partially addressed 4 elements related to 
monitoring implementation, projecting productivity, and workforce 
planning, and did not address 1 element related to identifying total 
resources. \12\ This element called for delineating the resources 
needed by VBA and the Board to implement the new appeals process and 
address legacy appeals.
---------------------------------------------------------------------------
    \11\ We identified 22 required elements for VA's comprehensive plan 
under section 3(a) and (b) of the Act. Specifically, subsection (a) 
contains 4 elements, and subsection (b) requires the appeals plan to 
address 18 elements.
    \12\ See GAO 18 352.
---------------------------------------------------------------------------
    We recommended in March 2018 that the Secretary of Veterans Affairs 
address all 22 required elements in the Act in VA's appeals plan to 
Congress. This included delineating resources required for all VBA and 
Board appeals options using sensitivity analyses and results from the 
RAMP test where appropriate and needed. \13\
---------------------------------------------------------------------------
    \13\ Sensitivity analysis-used in scenario planning to, for 
example, determine the resources needed for implementing a new process-
is an analysis to determine how sensitive outcomes are to changes in 
assumptions, such as those used to determine resource needs. The 
assumptions that deserve the most attention should depend on the 
dominant benefit and cost elements and the areas of greatest 
uncertainty of the program or process being analyzed. See GAO 09 3SP.
---------------------------------------------------------------------------
    Since our 2018 report, VA has taken some action on the five 
elements that were not fully addressed. For example, VA's updated plan 
added details related to projecting staff productivity, identifying 
total resources, as well as about personnel requirements and 
projections for processing legacy appeals. For identifying total 
resources, VA added FTE information for other offices that help 
implement the appeals process and prepared a model to project resource 
needs.
    VA's updated plan, however, continues to only partially address 3 
elements related to monitoring implementation and workforce planning, 
and now addresses the 1 element related to projecting productivity and 
partially addresses the 1 element related to delineating the total 
resources. For total resources, VA's updated plan does not delineate 
the total resources required by VBA and the Board. Until VA's appeals 
plan provides complete information on all required elements, Congress 
may not have the information needed to conduct oversight of the 
agency's efforts to implement and administer the new process while 
addressing legacy appeals.

VA Has Partially Addressed GAO's Recommendation to Measure, Monitor, 
    and Assess Performance

    In our 2018 report, we found that VA could improve its planning 
practices related to monitoring and assessing performance on a range of 
key dimensions of success. Specifically, the plan had not (1) 
established timeliness goals for two of the three Board options (i.e., 
Board review of additional evidence without a hearing and Board review 
of additional evidence with a hearing); (2) articulated additional 
aspects of performance important for managing appeals, such as accuracy 
of decisions, veteran satisfaction with the process, or cost; (3) 
provided important details about what aspects of the new appeals' 
performance would be compared to what aspects of the legacy process' 
performance; or (4) explained how the agency would monitor whether 
resources are being appropriately devoted to both the new and legacy 
appeals processes and how it will track both sets of workloads.
    To address these gaps, we recommended that the Secretary of 
Veterans Affairs clearly articulate in VA's appeals plan how VA will 
monitor and assess the new appeals process compared to the legacy 
process. These include specifying a balanced set of goals and measures 
with related baseline data, such as timeliness goals for all VBA 
appeals options and Board dockets, and measures of accuracy, veteran 
satisfaction, and cost.
    In its May 2018 updated plan, VA addressed some but not all aspects 
of this recommendation. Specifically:

    Timeliness goals and balanced measures. VA's updated plan states 
that the agency is collecting data to inform its development of a 
complete and balanced set of measures for all new appeals options 
(e.g., timely and accurate processing of appeals while ensuring veteran 
satisfaction). VA's original plan had outlined timeliness goals for the 
two VBA options and for the Board option that does not include new 
evidence or a hearing. However, VA does not intend to establish 
timeliness goals or balanced measures for all options until after fully 
implementing the new appeals process. Further, VA officials told us 
they are working to produce metrics required under the Act, but have 
yet to fully articulate a plan for monitoring. For example, there is 
not a specific plan to monitor the accuracy of decisions under or 
veteran satisfaction with the new process. \14\ Until VA identifies a 
complete set of timeliness goals and balanced measures, the agency will 
not have a way to determine how well the new process is performing. 
\15\
---------------------------------------------------------------------------
    \14\ Section 5 of the Act requires VA to periodically publish on 
its website various metrics on the new and legacy processes, which 
could help VA measure performance. Pub. L. No. 115-55, <l-arrow> 5, 131 
Stat. 1105, 1123.
    \15\ The absence of goals and measures falls short sound planning 
practices that call for articulating an ``end state'' or vision for 
what successful implementation process change would look like. See GAO, 
Results-Oriented Cultures: Implementation Steps to Assist Mergers and 
Organizational Transformations, GAO 03 669 (Washington, D.C.: July 2, 
2003).
---------------------------------------------------------------------------
    Comparison of new and legacy processes. VA's updated plan states 
that VA is working toward capturing the metrics listed in section 5 of 
the Act, which could help VA measure relative performance of the new 
and legacy processes. \16\ However, VA's updated plan does not state 
how VA will assess whether the new process addresses problems in the 
legacy process. \17\ For example, according to VA's updated plan and 
agency officials we interviewed, VA believes it cannot measure the 
timeliness of legacy appeals processing from when an appeal is filed to 
its resolution. According to VA, developing this measure is not 
feasible because the legacy process has no defined endpoint. Submission 
of additional evidence by veterans can, at any point, cause additional 
cycles of re-adjudication. However, VA has not articulated other 
options for comparing the timeliness of the new and legacy processes in 
its May 2018 update to its plan. Without this assessment, VA cannot 
determine the extent to which the new process, which also allows for 
multiple appeal opportunities, will achieve final resolution of 
veterans' appeals sooner, on average, than the legacy process. 
Moreover, VA's updated plan does not fully explain how the agency will 
use the Act's metrics to assess relative performance of the new and 
legacy appeals processes on issues like accuracy, veteran satisfaction, 
or cost.
---------------------------------------------------------------------------
    \16\ For example, VA is required to report average duration of each 
segment of the legacy appeals process as well as for appeals under the 
new process, such as the average duration for processing claims and 
supplemental claims for the new VBA options.
    \17\ As we previously reported, VA's business case for reform in 
some instances relied on unproven assumptions and limited analyses of 
its legacy process to identify root causes of performance problems. See 
GAO 17 234 and GAO 18 352. In addition, in March 2017 we recommended 
that VA develop a strategy for assessing process reform-relative to the 
legacy process-that ensures transparency on the extent to which VA is 
improving veterans' experiences with its disability appeals process. 
GAO 17 234.
---------------------------------------------------------------------------
    Monitoring processing of legacy versus new appeals. VA's updated 
plan articulates VA's intention to use sensitivity and other analyses 
to monitor and address workload changes in its legacy and new appeals 
processes. \18\ These analyses could better position VA to manage the 
two parallel processes.
---------------------------------------------------------------------------
    \18\ We had previously recommended VA conduct additional 
sensitivity analyses to inform projections of future appeals 
inventories. See GAO 17 234. In its plan, VA refers to this as its 
forecast model.
---------------------------------------------------------------------------
    Nevertheless, VA has not established complete and balanced goals 
and measures or developed a plan for comparing the new and legacy 
processes. In recent communications on the status of implementing our 
recommendations, VA officials indicated they plan to address some of 
these monitoring and performance issues in the next update. Until VA 
does so, the agency risks not fully understanding whether the new 
process is an improvement, or whether veterans with appeals in the 
legacy process are experiencing poor results. \19\
---------------------------------------------------------------------------
    \19\ In our March 2017 report, we had recommended VA develop a 
robust plan for closely monitoring implementation of process reform 
that includes metrics and interim goals to help track progress, 
evaluate efficiency and effectiveness, and identify trouble spots. GAO 
17 234.

VA Has Made Little Progress in Addressing GAO's Recommendation to 
---------------------------------------------------------------------------
    Augment Its Master Schedule for Implementation

    Our March 2018 report also identified elements of a high-quality 
and reliable implementation schedule that were missing from VA's master 
schedule for appeals reform. Specifically, we reported that VA's master 
schedule-which the agency included with its November 2017 plan-did not 
(1) include all key activities; (2) show which activities must finish 
prior to the start of other activities, or the amount of time an 
activity could be delayed before the delay affects VA's estimated 
implementation date; (3) reflect interim goals and milestones for 
monitoring implementation; or (4) assign resources for activities.
    We recommended that the Secretary of Veterans Affairs augment the 
master schedule for VA's appeals plan to reflect all activities-such as 
modifications to IT systems-as well as assigned responsibilities, 
interdependencies, start and end dates for key activities for each 
workgroup, and resources. These steps establish accountability and 
reduce overall risk of implementation failures.
    In its updated plans, VA took steps to develop interim goals and 
milestones for monitoring implementation, among other positive actions, 
but the master schedule still included gaps in sound practices for 
project management. Specifically:
    Key activities and their duration. The updated master schedule VA 
provided in its May 2018 plan added activities, but VA continues to 
exclude some major activities-including those beyond the planned 
February 2019 implementation date-and their duration. For example:

    <bullet>  The updated master schedule does not include a small-
scale pilot of the new Board options, even though this pilot is 
occurring at the same time VA is preparing for full implementation. In 
response to our questions about this issue, as of July 2018, VA 
officials said they are adding related pilot test activities to the 
master schedule.
    <bullet>  Many activities in the master schedule have the same 
label or description, such as ``communications,'' ``change 
management,'' ``implementation,'' ``training,'' and ``hosting,'' that 
do not clearly identify their associated end product without the need 
to review high-level summary or predecessor activity names.
    <bullet>  The updated master schedule lacks details and 
transparency regarding Caseflow, the new information technology system 
for VA's appeals process. \20\ While VA identified the overall 
functionality and general timing needed for Caseflow, the steps to 
accomplish them lack specificity. Further, VA's updated plan indicates 
Caseflow will be ``minimally ready'' by the end of calendar year 2018. 
At a June 2018 meeting with VA, we asked officials to define the term 
``minimally ready'' and what additional activities or functionality, if 
any, they planned after reaching this milestone. In response, VA 
officials pointed us to another source that they said outlined the 
remaining functionality to complete Caseflow. However, when we 
consulted this source, we could not determine what functionality listed 
was to be implemented before or after October 2018.
---------------------------------------------------------------------------
    \20\ In March 2017, we recommended that VA develop a schedule for 
information technology updates that explicitly addresses when and how 
any process reform will be integrated into new systems and when 
Caseflow will be ready to support a potential streamlined appeals 
process at its onset. See GAO 17 234.
---------------------------------------------------------------------------
    <bullet>  The updated master schedule also lacks start and finish 
dates as well as status information (e.g., not started, in planning, in 
progress, complete, etc.) for many of the activities.

    Sequencing and linkages among activities. VA's updated plan 
provided new details about some sub-activities related to processing 
legacy appeals, monitoring implementation, drafting Board policies, and 
training. Moreover, the May 2018 updated master schedule was 
reorganized to improve its flow and alignment, according to VA 
officials. However, the overall updated master schedule generally does 
not indicate logical relationships regarding the sequence in which 
activities should occur, and whether any delays in one activity will 
dynamically affect other activities linked to it. \21\ This type of 
logic is necessary to define both when an activity may start and finish 
and when an activity must start and finish for meeting a specified 
program completion date. These are known as early and late dates, 
respectively. For example, the plan does not indicate the latest date 
regulations can fall behind schedule before the planned February 2019 
implementation date is impacted, or related activities such as 
training. This sound planning practice is especially important because 
VA officials said the agency is concurrently executing many of the 
activities. Without logical relationships, the master schedule is less 
effective for modeling the impact of delayed or accelerated activities 
on related activities, and ultimately for estimating the final 
implementation date.
---------------------------------------------------------------------------
    \21\ See GAO, GAO Schedule Assessment Guide: Best Practices for 
Project Schedules, GAO 16 89G (Washington, D.C.: December 2015).
---------------------------------------------------------------------------
    Interim goals and milestones for monitoring implementation. VA has 
taken steps to address this aspect of the recommendation. In addition 
to reiterating the use of an agency-wide governance structure to 
coordinate implementation of its new appeals process, VA in its updated 
May 2018 plan added indicators to monitor and assess its readiness for 
full implementation. Indicators include monitoring the status of 
implementing regulations and information technology as well as 
considering any lessons learned through its piloting of the new 
process. These ``readiness indicators'' could help VA better identify 
potential issues related to implementation of the new appeals process. 
However, the master schedule does not show sequencing and linkages for 
these indicators.
    Establishing resources. VA's updated plan states the agency will 
use existing resources to implement the new appeals process. Moreover, 
the master schedule identifies the ``owners'' or parts of the 
organization that are playing a role in appeals reform, such as the 
Veterans Health Administration (VHA). However, other than identifying 
the ``owners'' for the activities, resources needed are not identified 
for the groups of related activities identified in the master schedule 
or for processing legacy and new appeals processes once implemented in 
February 2019. By not estimating these resources, VA's plan does not 
illuminate resource constraints and indicate whether other parts of the 
organization or workgroups are dedicated full-time to the tasks or 
activities for which they are responsible, or whether other constraints 
exist on funding or time. In general, neither the plan nor the master 
schedule refers to underlying budget or cost documents or information.
    In recent discussions on the status of implementing our 
recommendations, VA officials indicated they plan to address some of 
these issues in the August 2018 update. Until all necessary activities 
are accounted for, VA cannot be certain whether key activities are 
scheduled in the correct order, resources are properly allocated, and 
key risks have been identified, among other sound practices for guiding 
implementation and accountability. Furthermore, to the extent that the 
master schedule is used for internal coordination, the absence of 
necessary elements could hinder coordination, increasing the likelihood 
of disruption or delay.

VA Has Addressed Many, but Not All Aspects of GAO's Recommendation to 
    More Fully Assess Risk

    In our 2018 report, we found that VA's November 2017 appeals plan 
could more fully assess key risks related to implementing the new 
appeals process. In particular, we found that VA's plan did not include 
testing of new Board options or clearly define how it would assess the 
RAMP pilot test of the VBA-only options before implementing the process 
more broadly. \22\ Further, we reported that VA's plan had not 
comprehensively reflected key risks because the agency had not 
established a complete and balanced set of goals and measures, which 
are a necessary pre-condition to effectively assessing risk. \23\
---------------------------------------------------------------------------
    \22\ We previously reported on the benefits of testing appeals 
reform and the risks of not doing so, and recommended that Congress 
require VA to develop options for testing appeal reform prior to 
implementation. See GAO 17 234. The Act authorizes VA to carry out 
programs to test any assumptions relied upon in developing its 
comprehensive plan and test the feasibility and advisability of any 
facet of the new appeals process.
    \23\ See GAO 18 352. A risk assessment is the identification and 
analysis of risks related to achieving the defined objectives. This 
assessment provides the basis for developing appropriate risk 
responses. See GAO 14 704G.
---------------------------------------------------------------------------
    We recommended the Secretary of Veterans Affairs ensure that the 
appeals plan more fully addresses risk associated with appeals reform 
by, for example, assessing risks against a balanced set of goals and 
measures, articulating an assessment plan for RAMP, and testing or 
conducting sensitivity analyses of all appeals options-prior to fully 
implementing the new appeals process.
    In its updated May 2018 plan, VA took many steps to address our 
recommendation, although opportunities exist to better assess risks 
associated with implementing appeals reform and managing appeals 
workloads in the legacy process. Specifically:
    Testing all aspects of the new appeals process. Since our March 
2018 report, VA has taken steps to pilot test the three new Board 
appeals options. In its May 2018 updated plan, VA describes a small-
scale test program-the Board's Early Applicability of Appeals 
Modernization (BEAAM)-to collect information about what options 
veterans choose and their experiences using the new appeals options. 
For BEAAM, the Board is partnering with veterans service organizations 
to identify 50 veterans who are dissatisfied with a recent claim 
decision, and allowing these veterans to appeal directly to the Board. 
Participating veterans have begun opting in, and VA plans to collect 
information on adjudication of these appeals. In addition, for veterans 
dissatisfied with their RAMP decisions, as of October 2018 the Board 
will begin adjudicating their appeals to further test new Board 
processes and technology.
    VA officials also reported progress with developing new sensitivity 
analyses that will allow the agency to change assumptions related to 
key variables-both individually and in conjunction with one another. 
\24\ VA anticipates these analyses will allow the agency to project 
potential budget needs and staffing requirements and more accurately 
predict resolution of legacy appeals given certain assumptions. 
Further, VA anticipates using the analyses to determine distribution of 
resources, and quickly react to changes in its pending legacy and new 
appeals processes, and other trends. By taking these steps, VA may be 
better positioned to estimate future disability appeals inventories, 
timeliness, and resource needs as well as assess risks associated with 
implementing a new appeals process.
---------------------------------------------------------------------------
    \24\ This step is also consistent with our 2017 recommendation that 
VA conducts additional sensitivity analyses to better project future 
workloads and hiring needs to help mitigate potential risks. See GAO 17 
234.
---------------------------------------------------------------------------
    Defining success criteria and articulating how to assess RAMP and 
BEAAM. In its updated plan, VA broadly defines what it hopes to achieve 
with the RAMP and BEAAM pilots, such as providing information on 
veterans' choices in the new process, testing new technology and 
procedures, and estimating workloads. It also states that VA will use 
the results to inform the assumptions in its sensitivity analyses. In 
addition, the updated plan states that VBA is refining the methods to 
evaluate RAMP.
    The applicability of BEAAM results to a fully implemented appeals 
process may be limited. For example, the BEAAM pilot and the Board's 
implementation of RAMP provide limited time in which to conduct and 
assess the results. Moreover, because VA's test is very small in scale 
(up to 50 veterans), it will be important for VA to consider, for 
example, whether these appeals reflect the complexity of cases and the 
range of circumstances expected in a fully implemented new appeals 
process. In a mid-May 2018 meeting with VA officials, we raised these 
and similar concerns. VA officials said they would consider these 
concerns.
    Finally, although VA's updated plan includes a timeline for testing 
and assessing the new processes, VA's updated schedule indicates that 
VA is planning to assess RAMP results between February 15, 2019 and May 
10, 2019. These dates occur after VA intends to fully implement its new 
process. Our recommendation specifies that testing and assessment of 
pilot results should occur prior to full implementation.
    Comprehensively assess risks. Within VA's updated plan, VA has 
added to its ``risk register,'' which describes risks associated with 
many elements of its plan and related mitigation strategies. However, 
VA's updated plan has not established a complete and balanced set of 
goals and measures as discussed above, which are a necessary pre-
condition to effectively assessing risk. Having a complete set of goals 
and measures would allow VA to better identify and target risks 
associated with reaching these goals while concurrently managing two 
processes. Thus, VA may not have comprehensively reflected key risks in 
its updated plan.
    In conclusion, although VA intends to fully implement the new 
disability appeals process in about 6 months (February 2019), VA still 
has an opportunity to create a stronger foundation of sound planning 
practices. To its credit, VA has taken a number of positive steps 
toward implementing our prior recommendations to improve its planning 
for disability appeals reform while it attends to legacy appeals. 
Efforts such as testing Board appeals options and resuming sensitivity 
analysis will provide useful information to guide VA through the 
uncertainty often associated with process change. However, VA needs to 
fully address our four recommendations to reasonably assure smooth 
implementation of appeals reform. As we noted in our prior work, VA is 
undertaking a complex endeavor that involves updating and creating new 
processes while on-boarding hundreds of new staff and implementing new 
technology-an endeavor that will affect the lives of hundreds of 
thousands of veterans with disabilities. Such an undertaking requires 
an appropriate level of planning to improve VA's chance of success. 
VA's continued efforts to address our recommendations will better 
position the agency in its implementation of new appeals processes.
    Chairman Roe, Ranking Member Walz, and Members of the Committee, 
this concludes my prepared statement. I would be pleased to respond to 
any questions you may have at this time.

GAO Contact and Staff Acknowledgments

    For further information about this testimony, please contact 
Elizabeth H. Curda at (202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6e787f696c684d6a6c62236a627b23">[email&#160;protected]</a> Contact points 
for our Offices of Congressional Relations and Public Affairs may be 
found on the last page of this testimony. Other key contributors to 
this testimony include James Whitcomb (Assistant Director), Daniel 
Concepcion (Analyst in Charge), and Michele Grgich. In addition, key 
support was provided by Susan Aschoff, Mark Bird, Grace Cho, Alex 
Galuten, Joel Green, Sheila R. McCoy, Karen Richey, Almeta Spencer, and 
Walter Vance.

    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. The published product may be 
reproduced and distributed in its entirety without further permission 
from GAO. However, because this work may contain copyrighted images or 
other material, permission from the copyright holder may be necessary 
if you wish to reproduce this material separately.

GAO's Mission

    The Government Accountability Office, the audit, evaluation, and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the federal government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.

Obtaining Copies of GAO Reports and Testimony

    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through GAO's website (https://www.gao.gov). Each weekday 
afternoon, GAO posts on its website newly released reports, testimony, 
and correspondence. To have GAO e mail you a list of newly posted 
products, go to https://www.gao.gov and select ``E-mail Updates.''

Order by Phone

    The price of each GAO publication reflects GAO's actual cost of 
production and distribution and depends on the number of pages in the 
publication and whether the publication is printed in color or black 
and white. Pricing and ordering information is posted on GAO's website, 
https://www.gao.gov/ordering.htm.
    Place orders by calling (202) 512-6000, toll free (866) 801-7077, 
or TDD (202) 512-2537.
    Orders may be paid for using American Express, Discover Card, 
MasterCard, Visa, check, or money order. Call for additional 
information.

Connect with GAO

    Connect with GAO on Facebook, Flickr, Twitter, and YouTube.
    Subscribe to our RSS Feeds or E-mail Updates. Listen to our 
Podcasts.
    Visit GAO on the web at https://www.gao.gov.

To Report Fraud, Waste, and Abuse in Federal Programs

    Contact:
    Website: https://www.gao.gov/fraudnet/fraudnet.htm
    Automated answering system: (800) 424-5454 or (202) 512-7700

Congressional Relations

    Orice Williams Brown, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="53043a3f3f3a323e201c1334323c7d343c25">[email&#160;protected]</a>, (202) 
512-4400, U.S. Government Accountability Office, 441 G Street NW, Room 
7125, Washington, DC 20548

Public Affairs

    Chuck Young, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d445248535a5e0c7d5a5c52135a524b">[email&#160;protected]</a>, (202) 512-4800
    U.S. Government Accountability Office, 441 G Street NW, Room 7149, 
Washington, DC 20548

Strategic Planning and External Liaison

    James-Christian Blockwood, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8dfefde8e1cdeaece2a3eae2fb">[email&#160;protected]</a>, (202) 
512-4707
    U.S. Government Accountability Office, 441 G Street NW, Room 7814, 
Washington, DC 20548

                                 <F-dash>
                        Statement For The Record

                       NATIONAL VETERANS SERVICE
    Chairman Roe, Ranking Member Walz and members of the committee, on 
behalf of the men and women of the Veterans of Foreign Wars of the 
United States (VFW) and its Auxiliary, thank you for the opportunity to 
present the VFW's views on the Department of Veterans Affairs (VA) 
efforts to implement appeals reform.
    The VFW fully understands and respects the magnitude of 
transformation that VA must accomplish over the next seven months to 
ensure the new appeal framework can be deployed on time and in 
accordance with the Veterans Appeals Improvement and Modernization Act 
of 2017. To date, we believe that VA has been very aggressive in 
seeking to develop new business processes to ensure the new framework 
succeeds. We have provided feedback along the way and will continue to 
have open communication with VA about the challenges of implementing 
such a systemic change in a very short period of time.
    The VFW has seen several successes in the Rapid Appeals 
Modernization Program (RAMP) to this point. VA should be commended for 
deploying a system that improved workflow. However, as a veterans 
service organization (VSO) that represents more than 500,000 veterans 
in their claims and appeals, it is our duty to watch this process 
closely, identify deficiencies, and work with VA and Congress to fix 
them.
    First, we are encouraged by the grant rate that VA is reporting for 
appeals that have gone through the Higher Level Review lane. To the 
VFW, this indicates that review officers are taking this program 
seriously, and are not afraid to correct decisions. The VFW has also 
noticed that newer appellants are more likely to opt into RAMP than to 
stay in the legacy system, which could still take years to navigate. 
Even when veterans receive denials under RAMP, they are notified in a 
timely manner and more clear and simplified options to seek further 
resolution. We saw one example of this in Florida where a veteran opted 
into Higher Level Review continued to be denied, but was given a rating 
decision within only a matter of weeks of opting into RAMP. With a new 
rating decision in hand that provided improved explanation of the law 
and evidence considered, both the veteran and the VFW service officer 
were better equipped to address the veteran's appeal.
    VFW has also seen success with, the underutilized, informal 
conference process. In Kansas, our representative has had success 
ensuring that the adjudicator has a clear understanding of the issues 
under appeal, which increase the likelihood of veterans receiving 
favorable decisions.
    The VFW is pleased that VA was able to share draft regulations with 
VSOs very early in this process, soliciting VSO feedback. What we read 
at the time seemed very veteran-centric and gave us peace of mind. As 
the administrators of a national claims assistance program, we feel VA 
has made progress in improving collaboration which allows us to 
encourage our representatives in the field to recommend RAMP as a 
course of action for claimants. We are concerned, however, that VA is 
running behind on its proposed timeline for implementation. We 
anticipated that VA would publish its proposed regulations for public 
comment no later than July 1, 2018, with an expedited public comment 
period ending August 1, 2018. This timeline was critical to ensuring 
full implementation by February 2019. Unfortunately, the proposed 
regulations have yet to be published for public comment. We hope this 
does not skew the timeline significantly in meeting the statutory 
implementation deadline, since other implementation steps depend on the 
finalization of the regulations, such as the development of revised 
forms reflecting the options to appeal directly to the Board of 
Veterans Appeals (BVA).
    With regard to processing, we do have concerns over consistency in 
the process. We have questions about how long it takes some VA offices 
to properly process RAMP paperwork. We have seen veterans whose claims 
were already certified to BVA, awaiting a hearing, receive a RAMP opt-
in notice, even though they would be ineligible to participate. The 
paperwork to opt into RAMP is also confusing now that the program has 
been expanded. Originally, notice letters were sent with a coversheet 
filled out by VA that would route RAMP appeals to the Appeals Resource 
Center. Claimants choosing to opt in without having received a notice 
letter may not complete this section, as it states it is to be 
completed by VA personnel, and may therefore experience delays in 
establishing the claim.
    VA's computer systems have also caused issues with implementation. 
For example, RAMP actions cannot be taken before actions on other 
claims are completed, or vice versa. These conflicts create unnecessary 
hurdles for claims processors to resolve in a process that is supposed 
to be simplified. IT concerns must also be addressed to allow claimants 
to pursue different issues in different lanes, for full implementation 
of appeals reform.
    VA's adjudication numbers seem to also reinforce that processing is 
not as consistent as we need it to be. Though we have seen a 
significant increase in veterans who opt in, we have not seen a 
significant increase in RAMP decisions. This worries the VFW when it 
comes to full implementation. Will VA have the resources to process 
these new claims in a timely manner, or will we experience similar 
backlogs to what we saw at BVA, that led to calls for reform?
    In speaking with our field representatives, we also have concerns 
over the quality of decisions we see in the supplemental claims lane. 
From VA's latest report, the grant rate through supplemental claims is 
only 26 percent, which is lower than the grant rate at BVA. One of our 
representatives expressed a concern that the quality review system at 
the local VA Regional Office would actively discourage benefit grants 
through the supplemental claims lane. Since supplemental claims are 
considered by the same regional office that processed that original 
claim, the regional office would be reluctant to change the decisions 
because doing so would negatively affect its overall quality review.
    When it comes to Higher Level Review, we do see a promising 
practice emerging, now that VBA has designated three new Decision 
Review Operations Centers (DROCs) to handle this workload. We believe 
that the DROCs can help ensure consistency in decision-making at the 
higher level, and mitigate some concerns about VAROs simply confirming 
prior decisions. However, we are interested to learn how the DROCs will 
be staffed and if VA believes the staffing level will be sufficient for 
the anticipated number of Higher Level Reviews.
    Finally, with regard to duty to assist, we must remind the 
committee to continue asking questions about this critical legal 
protection for veterans. While everything we have seen to date 
indicates that VA is maintaining this obligation, we want to do 
everything in our power to ensure that no veteran slips through the 
cracks as new business processes emerge and standard practices within 
VA change.
    Again, we understand the magnitude of VA's task. To ensure it can 
succeed, VA must be as proactive as they can be in informing the VSOs 
of changes and consulting us on new business processes. Historically, 
VA has changed its workflows and only informed stakeholders after the 
fact, not recognizing that this affects both the veterans they serve 
and VSO service providers who help veterans navigate these systems. For 
organizations like the VFW that orchestrate large-scale claims 
assistance operations, we are always available to provide practical 
expertise and advice on how process changes will affect workflow and 
customer experience.
    Once fully implemented, we continue to believe that the new appeals 
framework will result in a cleaner, more understandable, and veteran-
centric benefits system. We appreciate VA's diligence in everything 
they have accomplished to this point and we look forward to continuing 
to work with VA and this committee to make appeals modernization a 
success.

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
